<html>
<title> - VOTING REPRESENTATION IN CONGRESS FOR CITIZENS OF THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]



 
   VOTING REPRESENTATION IN CONGRESS FOR CITIZENS OF THE DISTRICT OF 
                                COLUMBIA
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                              MAY 23, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs








                       U. S. GOVERNMENT PRINTING OFFICE
80-602                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
                     Cynthia Gooen Lesser, Counsel
            Michael L. Alexander, Professional Staff Member
              Richard A. Hertling, Minority Staff Director
                   Johanna L. Hardy, Minority Counsel
                     Darla D. Cassell, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Durbin...............................................     3
    Senator Levin................................................     4
Prepared statement:
    Senator Bunning..............................................    37

                               WITNESSES
                         Thursday, May 23, 2002

Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     5
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas.................................................     9
Hon. Russell D. Feingold, a U.S. Senator from the State of 
  Wisconsin......................................................    10
Hon. Anthony A. Williams, Mayor, District of Columbia............    13
Hon. Linda W. Cropp. Chairman, Council of the District of 
  Columbia.......................................................    16
Hon. Florence H. Pendleton, District of Columbia Statehood 
  Senator........................................................    18
Wade Henderson, Executive Director, Leadership Conference on 
  Civil Rights...................................................    22
Adam H. Kurland, Professor of Law, Howard University School of 
  Law............................................................    24
Jamin B. Raskin, Professor, Washington College of Law, The 
  American University............................................    29

                     Alphabetical List of Witnesses

Cropp, Hon. Linda W.:
    Testimony....................................................    16
    Prepared statement with attachments..........................    53
Feingold, Hon. Russell D.:
    Testimony....................................................    10
    Prepared statement...........................................    41
Henderson, Wade:
    Testimony....................................................    22
    Prepared statement...........................................    62
Johnson, Hon. Eddie Bernice:
    Testimony....................................................     9
Kurland, Adam H.:
    Testimony....................................................    24
    Prepared statement...........................................    68
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     5
    Prepared statement...........................................    38
Pendleton, Hon. Florence H.:
    Testimony....................................................    18
Raskin, Jamin B.:
    Testimony....................................................    29
    Prepared statement...........................................    79
Williams, Hon. Anthony A.:
    Testimony....................................................    13
    Prepared statement with an attachment........................    44

                                Appendix

Memorandum dated May 22, 2002, sent to Hon. Eleanor Holmes 
  Norton, Hon. Anthony Williams, Hon. Linda Cropp and Hon. Robert 
  Rigsby from Walter Smith, Executive Director, DC Appleseed 
  Center, regarding Congress' Authority to Pass Legislation 
  Giving D.C. Citizens Voting Representation in Congress 
  (submitted by Mayor Williams)..................................    89
Resolutions (submitted by Mayor Williams) from:
    State of Illinois............................................   100
    City of Chicago..............................................   101
    City of Philadelphia.........................................   102
    City of Baltimore............................................   103
    City of New Orleans..........................................   106
    City of Cleveland............................................   107
    City of Los Angeles..........................................   108
    City of San Francisco Board of Supervisors...................   109
Article by Jamin B. Raskin entitled ``Is This America? The 
  District of Columbia and the Right to Vote,'' Harvard Civil 
  Rights--Civil Liberties Law, Vol. 34, No. 1, Winter 1999.......   111
Betty Ann Kane, on behalf of the Board of Directors, Committee 
  for the Capital City, prepared statement.......................   171
Article entitled ``Implicit Statehood: Give the District a new 
  constitutional status,'' by Timothy D. Cooper, Charles Wesley 
  Harris, and Mark David Richards................................   174
Hon. Ralph Regula, a Representative in Congress from the State of 
  Ohio, prepared statement.......................................   175
Senator Paul Strauss, Shadow United States Senator Elected by 
  Voters of the District of Columbia, prepared statement with 
  attachments....................................................   177
Letter dated April 2, 2002 to President Bush from James N. 
  Rimensnyder, Cadet PFC USCC....................................   189
Letter dated March 26, 2002, from Joseph N. Grano, President, 
  Rhodes Tavern--D.C. Heritage Society, with attachments.........   190
John Forster, Activities Coordinator, Committee for the Capital 
  City, prepared statement.......................................   194
Antonia Hernandez, President and General Counsel, Mexican 
  American Legal Defense and Educational Fund (MALDEF), prepared 
  statement......................................................   195

Questions for the record from Senator Thompson and responses 
  from:
    Mr. Kurland with attachments.................................   198


   VOTING REPRESENTATION IN CONGRESS FOR CITIZENS OF THE DISTRICT OF 
                                COLUMBIA

                              ----------                              


                         THURSDAY, MAY 23, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Durbin, and Levin.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon. This hearing will come 
to order. I thank the Hon. Eleanor Holmes Norton for being 
here. We have two other members of the opening panel. The 
second Congresswoman is Eddie Bernice Johnson. Senator Feingold 
is on the way.
    This hearing has been called to discuss a question that is 
for 600,000 Americans an ongoing injustice and is for the 
Nation as a whole, I think, a stain on the fabric of our 
democracy. The question is, when will we finally extend full 
voting rights and voting representation in Congress to citizens 
of the District of Columbia? This denial is more than an 
historical anomaly. It is an ongoing and outrageous 
contradiction of the fundamental principles and rights of 
citizens of our great country.
    The Governmental Affairs Committee, which I am privileged 
to Chair, has oversight over the municipal affairs of the 
District of Columbia and in that sense has jurisdiction over 
the matter that we are discussing today.
    To me, it is incomprehensible that in the year 2002, ours 
is the only democracy in the world in which citizens of the 
capital city are not represented in the national legislature. 
Think of what visitors from around the world think when they 
come to see all of the beautiful landmarks and monuments of 
this great capital city, which are the symbols worldwide of 
democracy, if they would know that the people who live in this 
city alongside those symbols of democracy every day do not have 
one of the fundamental rights of that democracy, which is 
voting representation in the Congress.
    You know, I was thinking the other day what the reaction 
would be in Congress if for some reason the residents of Boston 
or Nashville or Denver or Seattle or El Paso had no voting 
representation here in Congress, and I pick all of those cities 
because they are about the same size as Washington, DC. The 
reality is that the Nation would not let those citizens go 
voiceless in Congress. So is it only because this injustice has 
gone on for so long that we tolerate it here in our Nation's 
capital?
    Obviously, citizens of the District pay Federal taxes. They 
serve and die in war. Yet, they are denied this fundamental 
right. Even though they pay taxes, they have no say about how 
those taxes are levied or on what priority that money from 
their taxes may be spent.
    The vote is a civic entitlement of every American citizen. 
It is democracy's most essential right and our most effective 
tool. The citizens who live in our Nation's capital deserve 
more than a non-voting delegate in the House. Notwithstanding 
the extraordinarily strong service of the Hon. Congresswoman 
Eleanor Holmes Norton, who is with us today, non-voting 
representation just is not good enough. As all who are here, I 
presume, know, while Ms. Norton may vote in committees, she 
cannot vote on the House floor. That is wrong and must be 
changed.
    That is why I am proud to be the Senate sponsor of the No 
Taxation Without Representation Act, which Congresswoman Norton 
has introduced in the House. I am delighted that Senator Russ 
Feingold, who is also an original sponsor of the legislation, 
is with us today.
    Of course, the name of our legislation is taken from our 
own revolutionary history because our forbearers went to war 
rather than pay taxes without being represented. The citizens 
of our capital city express by this movement that they believe 
in the principles the Nation's revolutionary heroes established 
and they want to benefit now from them.
    The bill's title, No Taxation Without Representation, is, 
if I might say so, pointed and ironic. Obviously, what the 
people of the District seek is voting representation, not 
exemption from taxes. In fact, the bill states in its first 
operative paragraph that District of Columbia residents shall 
have full voting representation in Congress. The tax provision 
is in the bill for effect, to remind us of this fundamental 
American principle that gave birth to our Nation and of the 
fact that no other taxpaying Americans are required today to 
pay taxes without representation in Congress.
    A recent national poll was of interest to me on this 
subject and it showed that a majority of Americans believe that 
District residents already have Congressional voting rights. 
You cannot blame them for that because it is so unbelievable 
that residents of the District do not have voting rights. But 
interestingly, when those who were polled were informed that 
District residents do not have voting rights, more than 80 
percent said that they should.
    Well, if we can right this wrong, we would, in that sense, 
therefore, not only be following the will of the American 
people, we would be advancing the cause of our Nation's 
historic destiny and, of course, fulfilling our responsibility.
    When we placed our capital, which was not established in 
their day, under the jurisdiction of Congress, the Framers of 
our Constitution, in effect, placed with Congress, I think, the 
solemn responsibility of assuring that the rights of the 
citizens of the District would be protected in the future. 
Congress has failed to meet this obligation now for much too 
long.
    In the words of this city's namesake, our first President, 
``Precedents are dangerous things. Let the reigns of government 
then be braced and held with a steady hand and every violation 
of the Constitution be reprehended. If defective, let it be 
amended, but not suffer it to be trampled on whilst it has an 
existence.''
    People of the District of Columbia have suffered this 
constitutional defect for far too long, so let us reprehend it 
and amend it together.
    I look forward to hearing from all of the witnesses today 
and I am pleased now to be joined by Senator Durbin, who is 
also a cosponsor of this legislation, and would call on him now 
for an opening statement.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman, for scheduling 
this hearing to explore the important question of whether the 
citizens of the District of Columbia should be granted full 
voting representation in Congress, and I salute your leadership 
on this issue.
    I am Chairman of the District of Columbia Authorizing 
Subcommittee and a member of the D.C. Appropriations 
Subcommittee. I have served in that capacity over the last 4 
years. I have lived part-time and occasionally full-time in the 
District of Columbia for about 39 years, so it really has been 
a second home to me, in addition to my State of Illinois, and I 
have watched a lot of changes in the District of Columbia. I 
never dreamed that I would be in this position in the U.S. 
Senate to help this great city.
    But we have passed some important legislation restoring the 
management and personnel authority of the D.C. Mayor, 
establishing a program to afford D.C. high school graduates the 
benefits of in-State tuition at State colleges and universities 
outside the District, permitting Federal law enforcement 
agencies to enter into cooperative agreements with D.C. 
Metropolitan Police, establishing a specialized family court, 
authorizing the redevelopment through the GSA of the Southeast 
Federal Center, and many other things.
    What I have found interesting in 20 years of service in 
Congress, and I am sure that Congresswoman Norton would agree 
with me on this, is how many men and women run for the House of 
Representatives and for the Senate when their secret desire is 
to be a mayor, because time and again, when issues come up 
involving the District of Columbia, these men and women who 
could not wait to get to Washington want to perform the role of 
mayor and city council when it comes to the District of 
Columbia. [Laughter.]
    It is startling. There are times, and Congresswoman Norton 
can back me up on this, when these people will condemn in the 
District of Columbia the very programs that they have at home. 
They would not have the nerve to bring up these issues at home, 
but because the District of Columbia is almost voiceless on 
Capitol Hill but for your heroic efforts, without a vote, they 
feel that they can make some sort of a political point. It is 
nothing short of amazing to watch this spectacle unfold.
    Now, I have also over the years taken exception with 
decisions by the D.C. City Council and I have been pretty vocal 
about them. But I have always tried to draw the line at taking 
exceptions. I do not believe it is my role, responsibility, or 
right to impose my views on the people of the District of 
Columbia when it comes to their sovereignty and their judgment 
of governance. I think that is one of the fundamental elements 
of a democracy and it is one that has been ignored by this 
Congress time and time again.
    It is long overdue for the 572,000 residents of the 
District of Columbia to have their voice on Capitol Hill, to 
have a voting Congressman, voting Senators, and to have 
representation that speaks for them with a vote in these two 
chambers. I think we have reached the point where we cannot 
make excuses any longer.
    Now, we all know why the District of Columbia is not a 
State, because, frankly, there are those who have made the 
political calculation that it may tip the scales one way or the 
other. But for goodness sakes, is that not what democracy is 
all about, to let the people tip the scales as they see fit 
with their right to vote?
    Thank you very much, Mr. Chairman, for this hearing.
    Chairman Lieberman. Thank you, Senator Durbin, for your 
support of the bill and for your excellent statement.
    Senator Levin, thank you for joining us.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing on a very fundamental issue, one 
of the issues that this country was founded upon.
    There are just simply no ``if''s, ``and''s, or ``but''s 
about it. We must correct the denial of representation which so 
unfairly and undemocratically locks the District of Columbia 
residents out of Congress. District residents share the same 
characteristics of citizenship as the residents of the 50 
States. They serve in the military. They have lost their 
husbands and wives, their sons and their daughters in foreign 
wars, defending our government. They study the Constitution and 
the obligations of citizenship. They say the same pledge of 
allegiance to the flag as every other American does. They are 
governed by the laws of the United States. They pay Federal 
taxes, in fact, more Federal taxes per capita than the 
residents of any other State but one.
    Yet, because the District is not recognized as a State and 
because of our failure to act for so long, D.C. residents do 
not have the full voting representation in Congress that they 
deserve.
    I would ask that the balance of my statement be inserted in 
the record, Mr. Chairman, because I know you want to proceed 
with this hearing, but I want to just commend our first panel 
for all of the tremendous work that they have done. I would 
also like to commend the Delegate who is before us, Eleanor 
Holmes Norton. You have performed very nobly under very 
difficult and limited circumstances which should end.
    Chairman Lieberman. Thanks, Senator Levin. Thank you very 
much.
    [The prepared statement of Senator Levin follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN
    Good afternoon. Thank you, Mr. Chairman, for holding this hearing 
on one of the most fundamental issues upon which our country was 
founded--the right to representation in making the laws that govern 
you. There are no ``ifs,'' ``ands'' or ``buts'' about it. The time is 
long past due to remedy the denial of representation which unfairly and 
undemocratically locks District of Columbia residents out of Congress.
    District residents share the same characteristics of citizenship as 
the residents of the 50 states: they serve in the military and have 
lost their husbands and wives, sons and daughters, in foreign wars 
defending our form of government; they study the Constitution and the 
obligations of citizenship; they say the pledge of allegiance to the 
flag; they are governed by the laws of the United States; and they pay 
Federal taxes, in fact more Federal taxes per capita than the residents 
of any other State except Alaska.
    Yet--because the District is not recognized as a State, and because 
of our failure to act for decades, D.C. residents do not have full 
voting representation in Congress. That means, very simply, that they 
are taxed without representation.
    I have not cosponsored S. 603, the No Taxation Without 
Representation Act, because while I understand the depth of frustration 
reflected in the provision in the bill that would allow citizens of the 
District to stop paying taxes until they get voting representation, I 
can't support that provision. Like residents of the 50 States, 
residents of the District of Columbia receive the protection of our 
military, the benefits of our social programs, our court system, and 
the freedoms guaranteed by our Constitution. However, I believe that 
full congressional representation should be adopted for the citizens of 
the District of Columbia, and I support legislation to do that. That 
action is long past due. Hopefully, the time will soon come, and this 
hearing can help make that happen.
    I welcome all of our distinguished panelists. Delegate Eleanor 
Holmes Norton, clearly we would not be here today without your 
steadfast leadership and your commitment to bring justice to the people 
of the District. We've had great communication with your office during 
the years on a number of matters, and I have a deep appreciation for 
you and your dedication to this city.
    To Representative Eddie Bernice Johnson, Chair of the Congressional 
Black Caucus, Wade Henderson of the Leadership Conference on Civil 
Rights, with whom I have been engaged on many issues, Mayor Anthony 
Williams, D.C. Council Chair Linda Cropp, Statehood Senator Pendleton, 
Professor Adam Kurland, and Professor Jamin Raskin, we are pleased that 
you are here.
    I know your testimony will further enlighten this Committee and 
hopefully advance the ball on this important issue.

    Chairman Lieberman. Senator Feingold, if you have the time, 
it would be my inclination to call on Congresswoman Norton 
first. It is a pleasure to be your cosponsor, your coworker, 
and without revealing exact dates, to have been your friend and 
classmate at Yale Law School some considerable period of time 
ago. [Laughter.]
    The Hon. Eleanor Holmes Norton.

TESTIMONY OF HON. ELEANOR HOLMES NORTON,\1\ A REPRESENTATIVE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. I thank you, Mr. Chairman, and for the record, 
I want you to know that I was ahead of you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Norton appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    Chairman Lieberman. That is very gracious of you. I was not 
going to reveal that. [Laughter.]
    You are looking very well. [Laughter.]
    Senator Levin. I just wonder if the rest of us should 
excuse ourselves while these two just have their conversation. 
[Laughter.]
    Ms. Norton. I did not say by how much----
    Chairman Lieberman. It was close.
    Ms. Norton [continuing]. But I thought I had to lay the 
record straight there lest I get an advantage to which I am not 
entitled.
    I begin by thanking you, Mr. Chairman, not only for 
introducing the No Taxation Without Representation Act, but for 
going further and holding this hearing on the voting rights 
provision of the bill. Ever true to high principles, you have 
always supported equal treatment for the residents of the 
District of Columbia, unfailingly stepping forward to lead and 
supporting bills for equal representation for D.C. residents.
    You have already brought the No Taxation Without 
Representation Act to the Senate floor during the debate on 
election reform in February. You submitted the bill as an 
amendment to the election reform bill because you said you 
believe that the voting rights issues raised in Florida in the 
2000 Presidential election only served to spotlight the denial 
of any vote at all in Congress to D.C. residents. By agreement 
with us and all concerned, your amendment was withdrawn until 
the bill is fully ready for vote.
    However, in your remarks, you said that you hope the 
discussion of the No Taxation Without Representation Act on the 
Senate floor, a discussion of D.C. voting rights, the first 
discussion of D.C. voting rights on the Senate floor in memory, 
would help educate the Senate about the denial here in 
preparation for granting D.C. the Congressional vote.
    I come today on the heels of a highly successful D.C. Lobby 
Day, last Wednesday, when more than 250 residents, energized by 
your bill in the Senate, visited every Senate office to seek 
cosponsors. The sponsors of the Lobby Day, the Leadership 
Conference on Civil Rights, People for the American Way, D.C. 
Vote, and Stand Up for Democracy, are in the throes now of 
making follow-up calls for final answers on sponsorship. I want 
to thank the Senators who are signing on now with a dozen 
cosponsors on the bill and follow-up calls still being made.
    The significance of the first citywide Lobby Day in the 
Senate was not lost on another strong supporter, Majority 
Leader Tom Daschle, who graciously agreed to meet with leaders 
of the coalition, the city, and the business community, as well 
as the Chair of the Democratic National Committee, on the 
morning of Lobby Day.
    I want also to thank Senator Max Baucus, who with you and 
Senator Daschle have worked to make clear that the only point 
of our bill is and always has been to achieve voting rights and 
its proper place in this Committee for that purpose. My special 
thanks also to your able and energetic staff for the 
magnificent work they have done since you introduced the bill.
    We will hear from others today about the damage to 
democracy and to the District because D.C. residents are denied 
the Congressional vote. I believe I can be most useful if I 
testify briefly from the unique perspective of the one official 
District residents are permitted to send to Congress.
    Beyond notions of fairness and equality, the role of the 
one non-voting delegate whose constituents pay Federal income 
taxes points up the absurdity of the present arrangement for us 
and for the Congress. At best, antiquated, inefficient, quite 
unintended by the Framers, and embarrassing. At worst, 
discriminatory, undemocratic, and shameful.
    The District is seriously harmed by having no 
representation in the Senate. I have the same privileges on the 
Senate floor as any House member, but even when the D.C. budget 
is before you, I can be on the floor, but not speak on the 
floor on our own budget. To its credit, the House has extended 
to delegates every privilege of the House except, of course, 
the most important, the vote on the House floor. The House has 
long allowed delegates the valuable vote in Committee. In 
response to the memo I submitted in 1993, the House even 
changed its rules to allow delegate voting in the Committee of 
the Whole, where most of our work is done.
    However, Mr. Chairman, measure the Nation's high-sounding 
rhetoric about democracy, preached unceasingly, particularly 
today, against the reality that even this delegate vote, which 
was not the full right other members enjoy, was rescinded by 
rule when the Republicans gained control of the House.
    The indignities to the residents I represent know no 
bounds. My testimony today will consist of a few among many 
examples that could be offered to demonstrate this point. It is 
useless and redundant and insulting enough to our Mayor, 
Council, and residents, alone in this country who are treated 
as children by the requirement to send their balanced budget to 
the Congress, where it is often toyed with and decorated with 
undemocratic attachments, while I press Congress to allow a 
local jurisdiction to spend its own local taxpayer-raised 
money.
    After struggling every year to get the D.C. budget to the 
floor, I must then stand aside, unable to cast a vote on our 
own budget, while members of the House from 49 States where 
residents pay less in Federal income taxes per capita than my 
constituents vote yea or nay on the D.C. budget. Indeed, my 
colleagues from seven States that have populations about our 
size each have one vote in the House and two in the Senate on 
the D.C. budget and on everything else. This pathetic paradox 
has been acted out on the House floor countless times in the 32 
years D.C. has had a delegate.
    Sometimes life and death issues have been at stake, such as 
when, without a vote, I had to fight off two bills that would 
have wiped out all of the District's gun laws in 1999 in the 
House, or when the Senate with no representation in this body 
forced a death penalty referendum on the District that the city 
turned back two-to-one in 1992.
    Even the voting rights that D.C. has won have not been 
fully realized. Lacking the vote during the House impeachment 
proceedings, my only recourse to preserve D.C.'s 1996 
Presidential vote, as guaranteed by the 23rd Amendment, was to 
bring a privileged resolution to the House floor. I argued that 
the vote for President that residents had cast required that a 
D.C. vote also be cast in the House concerning whether the 
President should be removed from office. The Speaker ruled 
against the District.
    Yet never, Mr. Chairman, have I felt more deeply about the 
denial of the vote to our residents than when our Nation has 
been called to war. I spoke but could not vote on the 
commitment of troops in the Persian Gulf War and most recently 
on the resolution authorizing the war against terrorism.
    I know you understand how deeply the denial of the vote in 
time of war cuts, Mr. Chairman. You said as much in your 
remarks on the Senate floor when you submitted the No Taxation 
Without Representation Act as an amendment to the election 
reform bill. You said that D.C. residents have 
disproportionately suffered casualties in America's wars. You 
informed the Senate that in World War I, the District suffered 
more casualties than three States, in World War II, more 
casualties than four States, in Korea, more casualties than 
eight States, and in Vietnam, more casualties than ten States.
    I believe it is fair to say that the examples in this 
testimony would shock most Americans, the great majority of 
whom say in the polls that we should have the Congressional 
vote. The examples I have cited and many more like them stand 
out like a disfiguring scar that, at best, robs our country of 
international credibility, and at worst, leaves us open to 
charges of hypocrisy.
    The denial of the vote to the 600,000 citizens who reside 
in the Nation's capital stunts the otherwise determined logic 
and progression about democracy, the 14th Amendment 
guaranteeing equal protection of the laws, the 15th Amendment 
guaranteeing the vote regardless of race, the 17th Amendment 
providing for direct popular election of Senators, the 19th 
Amendment enfranchising women, the 23rd Amendment affording 
District residents the right to vote for President, the Supreme 
Court's ``one person, one vote'' decisions, the 1965 Voting 
Rights Act barring impediments to voting regardless of race.
    Today, we ask the Congress that brought us this far along 
the way to democracy and equality not to stop now. Do not hold 
back the tide. The Senate saw that tide roll into this chamber 
on Lobby Day. D.C. residents came here in large numbers for the 
first time to show that they are free Americans, that the 
Senate is not off limits to them, and that they are entitled to 
representation here.
    Today, we ask the Senate to respond to these D.C. residents 
who represented the entire city when they came to lobby last 
Wednesday. We ask you to give them what they are due as 
Americans. We ask you to give them the Congressional vote that 
is the democratic hallmark of our republic. We ask you to pass 
the No Taxation Without Representation Act and we thank you, 
Mr. Chairman.
    Chairman Lieberman. I thank you, Delegate Norton, for your 
eloquent statement and for your passionate advocacy and I look 
forward to continuing to work with you in this cause.
    It is very important to state, I think, that neither of us 
or those at the table with you who support this cause or 
Senator Durbin and I have any illusions about the political 
difficulties in advancing it. But our hope in introducing the 
No Taxation Without Representation proposal was to bring our 
colleagues, and hopefully others throughout the country, back 
to the principle that you have just spoken to so effectively, 
which is this outrageous reality that 600,000 Americans are 
denied full voting rights in the year 2002.
    So by one way or the other, I know that you and I and 
Congresswoman Johnson, Senator Feingold, Senator Durbin, and 
others are committed to continuing to push forward until we are 
able to not only create or at least encourage, if not coerce, 
people to express the consensus that is undeniable, that this 
is wrong, and then to figure out how we together can go forward 
to make it right.
    Congresswoman Eddie Bernice Johnson from Texas, Chair of 
the Congressional Black Caucus, thank you very much for taking 
the time to come and join us today.

 TESTIMONY OF HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Johnson. Thank you very much, Mr. Chairman. It is my 
privilege to testify before the Senate Governmental Affairs 
Committee today on behalf of the 38 members of the 
Congressional Black Caucus. We salute you, Mr. Chairman, for 
your stand-up leadership in moving to eliminate discrimination 
in representation endured for too long by the citizens of the 
capital of the United States.
    Thank you for leading the Senate in sponsoring the No 
Taxation Without Representation Act and for holding this 
important hearing on the bill. All 38 members of the 
Congressional Black Caucus are sponsors of the bill in the 
House. Congress gave the District of Columbia the right to 
elect a delegate to the House shortly after the Caucus was 
founded in 1969. The D.C. Delegate has always represented 
people of all races equally. However, from the beginning, the 
Congressional Black Caucus took special umbrage that a member 
of our Caucus whose constituents paid Federal income taxes 
could not vote on the House floor.
    Today, Mr. Chairman, 32 years after the District got a 
delegate in this century, and 33 years after the formation of 
the Congressional Black Caucus, our umbrage has become anger. 
The CBC was formed during a high point of the civil rights 
movement and our members have always felt a special obligation 
to the District because the city is largely an African American 
city. A member of our Caucus has been deliberately handicapped 
in her work by the Congress. Although she is in every way equal 
to the rest of us, especially in the Federal income tax her 
constituents pay, she is treated unequally in the House in 
which we serve because of the intentional denial of voting 
representation to her constituents, and even more unequally in 
the Senate, where her constituents are without any 
representation.
    Congresswoman Eleanor Holmes Norton knows how to use her 
considerable voice and intelligence to benefit her 
constituents, but she has to do it with one hand tied behind 
her back. However, the Caucus concern goes well beyond the 
regard we have for one of our own or the special effort the CBC 
makes to help ensure that the District's interests are 
protected in the House, where residents have no vote.
    African Americans in this country identify strongly with 
the denial of voting representation to the District of 
Columbia. More than half of the districts of the Congressional 
Black Caucus members experienced a similar denial in Congress 
until the passage of the Voting Rights Act of 1965, including 
my own State of Texas. We emphasize that we of the 
Congressional Black Caucus make no difference based on race in 
our insistence on the sanctity of the vote and of the right of 
all people to a full and equal vote. We have worked hard on an 
election reform bill that is now before the House--and before 
that was precipitated by the 2000 Presidential election that 
robbed thousands of citizens of every race and ethnic 
background of their vote and determined an outcome at odds with 
the popular vote.
    However, if you want to get African Americans in this 
country angry today, just tell them that there is a majority 
black city anywhere in America where blacks and other Americans 
are treated as second-class citizens. Tell them that city is 
our Nation's capital and you spur them to especially strong 
action.
    We are engaged in such action today. The CBC, like the 
Leadership Conference on Civil Rights, has made the No Taxation 
Without Representation Act a priority. Our constituents expect 
no less from us because Congressional voting rights for the 
District of Columbia residents is a civil rights issue of 
historic importance whose time is long overdue. Many African 
Americans question the commitment of Members of the Congress to 
equal treatment if Members are timid about equal Congressional 
representation for all taxpaying Americans, including the 
residents of our capital. The denial of voting rights to 
taxpaying Americans who have fought in all of our wars raises 
profound moral issues.
    If we are to fight terrorism and help create democratic 
institutions abroad, we must first clean our own house. Our 
Nation is the leader of democracy and freedom and I find it 
incredulous that we deny the vote to 600,000 residents in the 
high-profile capital of this country.
    Let me assure you, Mr. Chairman, Congressional voting 
rights for the citizens of the Nation's capital has the laser-
like attention of the Congressional Black Caucus. Our members 
and our constituents are watching. We ask the rest of the 
Senate to follow your lead and we ask that the Senate please 
not let us down. I thank you very much.
    Chairman Lieberman. Thank you, Congresswoman Johnson, for 
an excellent and very principled statement. I appreciate it 
very much.
    Senator Feingold, thanks for being here. There are probably 
those in America who think that Senator Feingold's first name 
is McCain. [Laughter.]
    But it is Russell, Senator Russell Feingold, and I cannot 
thank him enough for joining me in this effort in the Senate 
because he really brings to it the same principle, personal 
principle, and sense of purpose that he brought to campaign 
finance reform. It took him a while, but he got it done. It may 
take us a while, but we are going to get it done. Senator 
Feingold.

 TESTIMONY OF HON. RUSSELL D. FEINGOLD,\1\ A U.S. SENATOR FROM 
                     THE STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. My official name 
change is going to come through before the next election. It 
will look good on the ballot. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Feingold appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    Thank you for inviting me to join you today and for 
allowing me to make a brief statement in support of our effort 
to secure full voting representation in Congress for the 
residents of the District of Columbia. I want to commend you, 
Mr. Chairman, as the others have, for your leadership and your 
work on this and your comments about how truly unbelievable it 
is that this can be the case in the United States of America in 
the year 2002. I want my colleagues in the House to know that 
when my constituents in Wisconsin find out about this, they are 
surprised, astonished, and they do not think it is right, and I 
am hoping that this is a message that can get clear throughout 
the country.
    I am very pleased, in fact, honored to be here today with 
Delegate Eleanor Holmes Norton. She has been a longtime, 
tireless champion of this important issue in Congress. It is an 
honor to work with her and with the Chairman and, of course, 
with Representative Johnson. I recently benefitted from her 
tremendous leadership skills in that very ability you were just 
kidding me about. Were it not for Representative Johnson and 
her leadership, I am not at all sure that we would have 
succeeded in the House of Representatives, and that bill had to 
do with the integrity of the vote and this one has to do with 
the right to vote, which is even more fundamental. So I thank 
you for your help on that.
    Mr. Chairman, our Nation, the greatest democracy on earth, 
was born out of a struggle against taxation without 
representation. Before the Revolutionary War, the British 
Government levied taxes on American colonists, but while these 
colonists were required to pay taxes to the British Government, 
they had no say, no voice, no power over how they would be 
governed. Just a few years before the first battle of the 
Revolutionary War, the British continued the imposition of 
Federal taxes with the Stamp Act and the Sugar Act.
    As we all know, in 1773, the Boston Tea Party took place. 
American colonists raided the three British ships in Boston 
Harbor and threw the tea overboard to protest the British tea 
tax. Soon thereafter, the colonists began to mobilize and to 
fight for independence, and ``no taxation without 
representation'' became a rallying cry. A few years later, of 
course, after a long and hard-fought struggle, a free and 
independent America was born.
    Yet more than 200 years later, Mr. Chairman, Americans in 
the District of Columbia, home to over half-a-million 
residents, remain disenfranchised. They are in a situation not 
all that different from that of the American patriots who 
fought so hard and sacrificed their lives to someday live free.
    Mr. Chairman, when the District of Columbia was created as 
our Nation's capital 200 years ago, its residents lost their 
right to full Congressional representation. These Americans, as 
we have pointed out, served in our Nation's Armed Forces, pay 
Federal taxes, and keep our Federal Government and capital city 
running day and night. They live in the shadows of the 
monuments of our forefathers and in this country's most highly 
praised defenders of democracy.
    They fight and die for this country in armed conflict, and 
yet they have no voice in the Senate and only a limited voice 
in the House. They do not even have the right to vote on basic 
administrative matters that other States and cities decide for 
themselves. Virtually every other Nation grants the residents 
of its capital city equal representation in its legislature. It 
is simply an embarrassment that in these modern times, we, as 
the world's most powerful democracy, deny voting representation 
to over half-a-million Americans.
    Since the ratification of the Constitution in 1788, the 
United States has forged its own suffrage history, guaranteeing 
the right to vote to all Americans regardless of race, gender, 
wealth, marital status, or land ownership. Through our 
interpretation of the ``one person, one vote'' doctrine, we 
have made great strides in overcoming inequality and under-
representation. There remains, however, this unresolved 
obstacle to suffrage for all Americans, the disenfranchisement 
of D.C. residents.
    Mr. Chairman, it is past time for Congress to undo this 
injustice, and so I was pleased to join you earlier this year 
as a cosponsor of the amendment that Representative Eleanor 
Holmes Norton mentioned to the election reform bill on the 
issue of voting representation for D.C. residents. I am told 
that this was probably the first time since 1978, when the 
Senate considered a constitutional amendment, that the issue of 
voting representation for D.C. residents was even debated on 
the floor of the Senate. After debate, you withdrew the 
amendment, but it was important to begin debating this issue in 
the Senate again. It is long overdue.
    So I again commend you, Mr. Chairman, for continuing the 
debate by holding a hearing on this issue today. Particularly 
at this time when D.C. residents are members of our Nation's 
military, the National Guard, the Capitol Police, who are 
serving in so many other important roles to fight terrorism and 
to protect our Nation from future terrorist attacks, it is, in 
fact, shameful, to pick one of the words that Representative 
Norton used, it is shameful that we deny them the right to full 
representation in Congress.
    It is past time for Congress to act. I urge our colleagues 
to join Senator Lieberman and me as cosponsors of the No 
Taxation Without Representation Act. This is an important bill 
to send a message that taxation without representation is 
unfair and un-American, and so I urge my colleagues to join us 
in ensuring full voting representation for Americans who call 
the District of Columbia their home. Thank you for the 
opportunity, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Feingold, for an 
excellent statement.
    I thank the three of you. Obviously, I have a position 
here, but I think the three statements have been very eloquent 
and moving and speaking from principle. I cannot say clearly 
enough that your presence and your words, as well as those of 
Senator Durbin and Senator Levin, both of whom had to go, make 
the point that we are not engaged here today in an act of 
symbolism. We have begun again a very serious effort to obtain 
what the citizens of the District of Columbia deserve under our 
Constitution, which is full voting rights and full 
representation, and we are going to continue in every way we 
can on every field we can to fight for this until we achieve 
it.
    Our numbers are growing. Your words encourage me and I look 
forward to working with you until we achieve the victory we all 
seek. Thank you very much, the three of you.
    We will call now on the second panel, who represent the 
Government of the District of Columbia and representation from 
the District of Columbia, Hon. Anthony Williams, Mayor of the 
District of Columbia, the Hon. Linda W. Cropp, Chair of the 
Council of the District of Columbia, and the Hon. Florence H. 
Pendleton, District of Columbia Statehood Senator.
    I also want to welcome Senator Pendleton's two colleagues, 
Statehood Senator Paul Strauss and Statehood Representative Ray 
Brown, who are also here today. If the two of you are here, why 
do you not stand. I thank you for all you have done. You are 
already acting like full-fledged Members of Congress by 
yielding to Statehood Senator Pendleton on the basis of 
seniority. [Laughter.]
    But we thank you for what you have done on behalf of this 
cause.
    Mayor Williams, thanks for being here. I know if I dwell 
for too long on our Yale contacts, I will be considered to be 
parochial, but I do want to state for the record that you were 
there long after I was. [Laughter.]
    I say as a matter of personal privilege, which you know, 
how proud I am to have watched your career come from Yale 
undergraduate to Lieberman ward worker to member of the Board 
of Aldermen in New Haven, to official of the State of 
Connecticut Government, to official of the Federal Department 
of Agriculture, to the Emergency Financial Board--I am not 
giving the right title to it--and then to be a truly superb 
Mayor of this Nation's capital city. I do not get the chance to 
do that too much on the record, and with those words, I welcome 
you and look forward to your testimony now.

 TESTIMONY OF HON. ANTHONY A. WILLIAMS,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Williams. Mr. Chairman, let me thank you, when you 
are Mayor, you will take compliments wherever you can get them, 
and I appreciate your remarks. I really do. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Williams with an attachment 
appears in the Appendix on page 44.
---------------------------------------------------------------------------
    Thank you for your leadership over these years, not only in 
regards to the District but in general, on a national level and 
certainly for Connecticut. You have my appreciation and 
certainly my recognition as a friend and as your Mayor while 
you are here in Washington.
    Chairman Lieberman. Thank you.
    Mayor Williams. I want to take the opportunity as Mayor of 
our city and on behalf of the citizens of our city to also 
commend Senator Levin and Senator Durbin for coming in here 
today and pledging their support for an important effort.
    As you mentioned, more than 200 years ago, the founders of 
this country fought a revolution to end the tyranny of taxation 
without representation and I have no doubt that the authors of 
the Constitution did not intend to force almost 600,000 
Americans to live under that same tyranny in the 21st Century. 
In fact, this body was established to create and amend laws as 
the needs of the people required. We are here today because a 
need has arisen, because you are vested with a power and a 
responsibility to make sure all Americans can exercise their 
rights.
    Full voting representation in Congress is a fundamental 
right held by every citizen of the District of Columbia. You 
have acted on behalf of disenfranchised women. You have acted 
on behalf of disenfranchised African Americans, Latinos, Native 
Americans, and other groups, and we now ask that you act on 
behalf of disenfranchised citizens of our Nation's capital and 
pass the No Taxation Without Representation Act.
    As Mayor of this city, I have had the privilege of 
representing our city across this country and abroad, from 
school children visiting our monuments to athletes 
participating in the Olympics, from diplomatic delegations 
working here in the District to State and local elected 
officials meeting in Washington. I have been amazed at the 
myths and misconceptions held about the power and status of the 
District of Columbia and they mirror your remarks, Mr. 
Chairman. I would like to share just a few.
    The Federal Government completely funds the District 
Government. That is a myth. There are no real people living in 
Washington, perhaps only pundits and Beltway Bandits. 
Washington residents already have full voting rights and 
complete self-government. Another one, Washington residents all 
have a second address and, therefore, representation in another 
State, and so what is the problem?
    To be clear about many of these and other myths, you should 
know that the budget for the District of Columbia is funded 
primarily by the people who live and do business in this city. 
Yes, the District receives some Federal funding, virtually the 
same amount as other cities our size receive from the Federal 
Government, but not nearly at the same level required to ensure 
the consistent delivery of essential services and certainly not 
commensurate with that provided by other nations to their 
capitals.
    Almost three-fourths of our operating budget comes from our 
local tax revenue, property tax, income tax, and business 
taxes. In fact, our residents are some of the most heavily 
taxed people in the country. I am not proud of that and I do 
not advertise that too much, but it is a fact.
    There are more than 572,000 real people living within ten 
square miles known as the District of Columbia. These are 
people who attend school, who work, who raise families, who pay 
taxes, both Federal and local, and it has been mentioned in 
testimony and in your comments, Senator, that we are the second 
highest Federal tax-paying citizens per capita in the country.
    It has been mentioned we serve in the Armed Forces, and in 
many parts of the District, we live on fixed incomes. And while 
a few of our residents come here and serve in the Federal 
Government and maintain a permanent address elsewhere, the vast 
majority do not. These are people who love their country, and 
in the wake of September 11 are keenly aware of what can be 
demanded of them during a national emergency.
    Washington residents were granted the right to vote for 
President in 1961, but we do not have full representation in 
the House and Senate. When legislation that directly affects 
our lives is drafted, debated, and adopted, we have virtually 
no voice in the process. Our residents elect a Mayor and 13 
members of the Council, a Chair of the Council, but every local 
law and every local budgetary decision made by this elected 
body must be approved by Congress, and this Council passes an 
endless series of emergency acts and temporary acts, and I see 
the enormous amount of paperwork to keep our government going 
while waiting for Congress to officially approve our 
government's action.
    No other jurisdiction in the country must submit its local 
budget to an outside authority elected by people from other 
States. No other jurisdiction must wait to invest funds in new 
programs while Members of Congress decide what is appropriate 
for the District.
    Over the years, the District of Columbia evolved into a 
living, breathing city, a city where streets need to be paved, 
homes built, children educated, trash and snow removed, trees 
trimmed, people protected from crime, and homes protected from 
fire. It became a city that needed to provide services to all 
of its residents and businesses, including those who live at 
1600 Pennsylvania Avenue and those who work and act as 
legislators on Capitol Hill.
    I am proud of the progress the District has demonstrated in 
the last several years. Last week, the Labor Department 
reported that the District has seen job growth in the last few 
months while surrounding jurisdictions have experienced a 
growth in unemployment. Over the past 5 years, we have balanced 
the budget, maintained the cash surplus, improved our credit 
rating, and met every goal set out by Congress to demonstrate 
the ability to self-govern. The District is on the verge of 
achieving its full potential as the heart of a vibrant region 
in a global economy, but to do so, we must be put on a level 
playing field.
    As you know, Senator, and all of us know, Webster defines 
democracy well as, I quote, ``A government in which the supreme 
power is vested in the people and exercise by them directly or 
indirectly through a system of representation, usually 
involving periodically held free elections.'' I say to the 
Committee, why are the people of the Nation's capital excluded 
from this system of representation?
    Well, the lack of voting rights is an economic issue in the 
District of Columbia. While the Congress has the power to 
impose restrictions on our city and limit our ability to tax, 
we will never have a level playing field. More than 50 percent 
of our land cannot be taxed. Income earned in the city commutes 
to Maryland and Virginia every day. We export dollars out of 
our city. State functions such as road construction, motor 
vehicle administration, and special education must be funded on 
the city's tax base. How can we continue to grow and be 
fiscally responsible when the city leaders have no authority 
over their own financial resources and no representation to 
negotiate with Congressional members?
    If the District had full voting rights, our representation 
could work towards greater parity for District residents and 
greater parity for the District with other jurisdictions across 
this region and the country.
    The lack of voting rights is a matter of justice in the 
District of Columbia. The inability of District residents to 
vote for voting Representatives and Senators in Congress 
violates our rights to equal protection and to a republican 
form of government.
    In the court case for full voting rights, Alexander v. 
Daley, the court did not determine that District citizens 
should not have voting rights. It determined that the courts 
lacked the power under the U.S. Constitution to require 
Congress to grant such rights. Congress has the opportunity and 
the power to correct this injustice by taking action now to 
guarantee justice by granting the citizens of the District 
their full voting rights.
    Finally, the lack of voting rights is a civil rights 
violation in the District of Columbia. African Americans and 
women and others have fought for and died for the right to 
vote, yet here in the capital of democracy lives one of the 
largest blocks of disenfranchised voters in the world. District 
residents fight for freedom abroad and pay more than $2 billion 
a year in Federal income taxes at home as the world's leading 
democracy. It is unacceptable that the United States does not 
grant voting rights to the residents, to the citizens of this 
capital city.
    The issue of District voting rights has resonated across 
the country. A number of local and national organizations have 
taken actions in support of full voting rights for our city, 
and I want to commend Shadow Representative Ray Brown for his 
leadership and support in this effort. Such organizations 
include the National League of Cities, the National Conference 
of Black Mayors, and the Executive Committee of the U.S. 
Conference of Mayors, which have all passed resolutions or 
adopted policy positions in support of the District.
    In addition, resolutions from cities across the country 
supporting voting rights have been adopted by the cities of 
Chicago, Philadelphia, Cleveland, Baltimore, Los Angeles, New 
Orleans, and San Francisco, and as you have mentioned, Mr. 
Chairman, national polls indicate that a huge majority of 
people across the country support full representation for 
District residents. I ask that these resolutions be entered 
into the record of this Committee hearing.\1\
---------------------------------------------------------------------------
    \1\ Memorandum and Resolutions submitted by Mayor Williams appear 
in the Appendix on pages 89 through 109.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Mayor Williams. Once again, Mr. Chairman, I commend you for 
your leadership in general, your support for this city in 
voting rights in particular, and as always, I am ready, 
willing, and able to answer any questions you may have. Thank 
you for the opportunity to testify.
    Chairman Lieberman. Thank you, Mayor. We will have some 
questions. Thanks for describing not only the cause and the 
principle here, but the practical realities of the interaction, 
including the additional fiscal responsibilities placed on the 
city as a result of the presence of the Federal Government here 
and how that adds to the injustice of no voting representation.
    Chairwoman Cropp, thank you for being here. I look forward 
to your testimony now.

 TESTIMONY OF HON. LINDA W. CROPP,\2\ CHAIRMAN, COUNCIL OF THE 
                      DISTRICT OF COLUMBIA

    Ms. Cropp. Thank you very much, Chairman Lieberman. Good 
afternoon. Let me begin by thanking you, Mr. Chairman, for 
sponsoring legislation and holding this public hearing on the 
denial of voting representation in Congress for the 600,000 
American citizens who live in the District of Columbia.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Cropp with an attachment appears 
in the Appendix on page 53.
---------------------------------------------------------------------------
    This is the first Senate hearing on District voting rights 
in an extremely long time, so we very much appreciate this 
historic opportunity to urge you and your colleagues to use the 
power that you have to bring democracy to the Nation's capital. 
I am joined today with Adrian Fenty, another member of the 
Council.
    Attached to my testimony is a resolution and report adopted 
unanimously by the D.C. Council earlier this month supporting 
the No Taxation Without Representation Act that has been 
introduced by you, Senator, and Senator Feingold in the Senate 
and Congresswoman Norton in the House. The Council's findings 
in the resolution essentially mirror the findings contained in 
the No Taxation Without Representation Act that I would like to 
highlight here.
    For far too long, District citizens have been invited to 
dinner, but we have not been allowed to eat. As you know, U.S. 
citizens residing in Washington, DC, have no voting 
representation in the House and no elected voice in the Senate. 
This was not always the case. For approximately 10 years after 
ratification of the U.S. Constitution and selection of the 
Federal District, residents of the District of Columbia were 
allowed to vote for Members of Congress. In 1800, Congress 
voted to end this practice and thereby disenfranchised District 
residents.
    Throughout the past two centuries, there have been various 
efforts to restore the franchise. There are many reasons full 
voting rights should be restored, but each evolves from a 
single principle: The right to vote is a fundamental principle 
of our democracy. Americans throughout the Nation agree, or 
would agree if they knew. Many, as you have heard from our 
Mayor, just do not believe that we do not have the right to 
vote. I have encountered them on numerous occasions.
    A survey conducted in October 1999 found that 72 percent of 
the respondents supported full voting rights in the House and 
Senate for District residents. The same poll showed high levels 
of support across party lines. Polling conducted a month later 
found that 55 percent of college graduates who were registered 
to vote were unaware that District citizens do not have 
Congressional voting representation.
    You have heard these facts before, but until there is a 
remedy to the fundamental injustice of our subordinate status, 
they must be reiterated. The residents of the District of 
Columbia are the only Americans who pay Federal income taxes 
but are denied voting representation in the House and the 
Senate. The District of Columbia is second per capital in 
income taxes paid to the Federal Government. The District is 
the source of over $2 billion in Federal taxes each year, an 
amount per capita greater than 49 other States. Yet, we have no 
say in Congress in how these dollars are spent.
    More District citizens have died in wars protecting the 
Nation than have the citizens of 20 other States. Congress has 
the exclusive right to declare war, and again, we have no say 
in this decision. The impeachment proceedings in Congress a few 
years ago highlighted the glaring anomaly of our lack of vote 
on an issue of removing from office the President of the United 
States whom we had a vote to elect.
    The United States is the only democracy in the world in 
which residents of the capital city are denied representation 
in the national legislature equal to that enjoyed by their 
Federal citizens. The denial of voting representation in 
Congress locks District residents not only out of our national 
legislature, but also out of what is a structural sense of our 
State legislature, a legislature that has extraordinary 
approval authority over all of the District's local legislation 
and all of the District's locally raised dollars, as 
articulated earlier by the Mayor.
    We who are elected representatives of the District's 
citizens are reminded daily, sometimes painfully, of the 
exclusive jurisdiction that Congress exercises over the 
District of Columbia pursuant to Article I, Section 8 of the 
United States Constitution. We believe that this same broad 
jurisdiction provides Congress with the constitutional 
authority to enact a bill by simple majority to restore 
Congressional voting rights to District citizens. The Congress 
and the Constitution treat the District as a State for hundreds 
of purposes, whether they are Federal benefits, burdens, or 
rights. Why not the most precious and fundamental right in a 
free and democratic society, the right to vote?
    The denial of District citizens the right to Congressional 
voting representation is the last unbreached frontier of civil 
and human rights in America. As the United States rightly tries 
to be a model and a defender of democracy around the world, we 
implore you to find a remedy to remove this inexcusable 
hypocrisy of democracy denied in our Nation's capital.
    We have tried in the past and without success thus far to 
obtain Congressional voting rights through a constitutional 
amendment, through a Statehood bill, through litigation. The 
Supreme Court, while sympathetic, has essentially stated that 
it is Congress where the remedy to this problem must be 
resolved.
    As we ask the Senate to take action this year to remedy our 
lack of voting representation in Congress, we also request that 
you take favorable action as soon as possible on legislative 
and budget autonomy for the District of Columbia. District 
residents have been invited to dinner but we have not been 
allowed to eat. D.C. residents are hungry for democracy. D.C. 
residents are starving for voting representation in Congress. 
It is past time for Congress not only to talk about the wrongs 
around the world regarding voting rights. It is now time to 
correct this injustice to the citizens of the District of 
Columbia. It is time for the plate of democracy to be passed to 
the citizens of the District of Columbia.
    Mr. Chairman, thank you again so very much for this 
opportunity to testify before the Committee today. As always, 
the Council looks forward to working with you in partnership to 
right this injustice.
    Chairman Lieberman. Thank you. Thank you for that excellent 
statement and I look forward to working with you and the 
Council, as well.
    The final witness on this panel is Statehood Senator 
Florence H. Pendleton. I do want to point out that, as I 
mentioned earlier, Senator Pendleton is the senior member of 
the delegation, but it is a delegation, I should state for the 
record and for those who do not know, that has been elected by 
the citizens. That is, Senator Pendleton, Senator Strauss, and 
Representative Ray Brown have been elected by the citizens of 
the District of Columbia to come before Congress and advocate 
the cause of Statehood. We are honored to have you here and 
look forward to your testimony now.

 TESTIMONY OF HON. FLORENCE H. PENDLETON, DISTRICT OF COLUMBIA 
                       STATEHOOD SENATOR

    Ms. Pendleton. Thank you so very much. Good afternoon, 
Senator Lieberman and Members of your Committee. It is so good 
that you are having this meeting today. It is a different kind 
of notice from the one I have had before. We have had Statehood 
meetings before. However, things have been tossed out and we 
are not applying for Statehood but we are asking for voting 
rights.
    No Taxation Without Representation is noteworthy because we 
are simply asking not to pay taxes unless we vote. The request 
is simple, no taxation without representation, and the answer 
can be straightforward. I would like to see the Senator or the 
member of the House of Representatives advocate that the people 
he represents are not entitled to representation and then give 
up his seat. You must not sit to represent a government and say 
that one is equal and one is unequal.
    All of the elected officials of the District of Columbia 
must speak with one voice on behalf of the residents of the 
District of Columbia. United we stand. I do not want to leave 
our children or our children's children in bondage. Let us put 
differences aside and work for the benefit of the people. 
Working together, we can unite the people, ignite their power, 
and focus their strength on the goal of freedom now.
    District residents have been paying Federal income taxes 
since 1943 and that was before the end of World War II. Our 
time has come. We must come out with a solid, united front for 
democracy, and the time is now.
    We must not take the crimes of persecution, enslavement, 
hatred, and greed from the 19th Century into the 21st Century. 
These evils have caused us pain and they have almost ruined our 
voting rights. We must lift up humanity and seize the day.
    Failing to do your duty, will you be able to stand and face 
the people, speak to the Congress on behalf of those citizens 
who have declared their desire to vote? If not you, who? And if 
not now, when?
    We must move this ship of freedom together if we are to be 
successful in combatting the oppression facing us here in the 
District of Columbia. The voting rights of the District of 
Columbia are begging for us to come forward, and forward we 
have come. It is not everything, but it is something and voting 
for this is what we want and any no vote should give up his 
seat.
    I sincerely thank you for having this session and I 
certainly do appreciate being able to speak.
    Chairman Lieberman. Thank you, Senator Pendleton. Thanks 
very much.
    The three of you anticipated most of the questions I wanted 
to ask in your opening statements, but let me ask this. As I 
listened to the first panel and the three of you speak, it 
really does seem to me that it would be hard for somebody to 
make a case against the principle here and the reality, the 
fact that District residents do not have voting rights, and, 
therefore, the concerns I presume that make this a more 
difficult effort for Congresswoman Norton and me and others are 
political, worries about how people would vote.
    So I want to give you, those of the three of you who wish 
to respond, an opportunity to respond to that political concern 
about the political result of voting rights here in the 
District as opposed to the principle, and then if you have 
heard other arguments that I am not considering, as they used 
to say to us in law school, against voting rights, whether you 
would share those with us, and if you care to provide the 
argument against.
    Mayor, do you want to begin with a response to either of 
those questions?
    Mayor Williams. I have often heard as we have traveled 
around that full voting rights for the District might result in 
tilting the balance politically one way or the other. But I 
would agree with other Members of the Committee who have 
mentioned that the rub in our Constitution is that we honor 
fundamental rights regardless of the consequences. We honor 
fundamental rights regardless of how difficult it is to honor 
those rights.
    The Fourth Amendment is often honored in very difficult 
circumstances, the Sixth Amendment, we know, in very difficult 
circumstances, a franchise in very difficult circumstances that 
we have seen as recently as a couple of years ago.
    So I think the fact that the electoral balance might be 
tipped one way or the other is at, I think, the point of our 
whole Declaration of Independence and Constitution and Pantheon 
of Rights. It is not that it is the province of elected 
officials to decide. It is the province of citizens to decide.
    While it is not our job to give all the arguments against 
voting rights for the city, you often hear the argument that 
Congress has plenary authority over the District and the 
Constitution is settled, and I would say two things to that. 
There are many individuals or organizations, sectors, if you 
will, that have power in the Constitution. Within our 
constitutional framework, the exercise of those powers always 
has to be balanced against and in the context of the overall 
framework of the Constitution.
    For example, the President has executive power under the 
Constitution, but certainly he has to or she has to exercise 
that executive power with due cognizance of the rights of 
others in the Constitution, rights specified in the 
Constitution, and certainly the fundamental right of the 
people.
    So the fact that Congress has power over the District to me 
does not, in my mind, excuse it of the responsibility to 
exercise that authority in the overall context of our 
Constitution based on principles of democracy.
    The second thing you often hear is, well, it is in the 
Constitution and that is that. As soon as our Constitution was 
written, it was already being amended with a Bill of Rights. If 
the Constitution had not been amended, I would not be sitting 
here as Mayor. Many of us would not be sitting here. So we have 
often, as you mentioned in President Washington's quotation, 
the Constitution was not written as a shrine before which we 
all worship but as a living, breathing document based on the 
fundamental rights of citizens.
    Chairman Lieberman. Well said. The third panel is composed 
of some legal experts and I might ask them to speak to the 
constitutional history here, but I believe I recall that the 
fact is that the District Clause was first inserted in the 
Constitution after the State of Philadelphia failed to protect 
the Continental Congress from protesting Revolutionary War 
veterans. Is that your recollection?
    Mayor Williams. That is my recollection, and as I often 
tell people, a perverse thing has happened. In order to 
insulate the Congress from parochial interests, exactly the 
inverse or converse has happened. The District is now exposed 
to the whim and the fancies and the predilections of 535 people 
often acting as a city council for the District.
    Chairman Lieberman. I guess I would add, being part of 
protecting Congress from any number of protesting groups that 
come here in a given year, bearing the cost of that protection, 
as a matter of fact.
    Chairwoman Cropp, do you want to add at all to the 
questions that I have asked?
    Ms. Cropp. Let me just concur with what the Mayor stated. 
But I think in addition to that, it is very clear that the 
intent was not to deny the District citizens the right to vote. 
The clear intent was for District citizens to have the right to 
vote and that is why we were franchised initially.
    Chairman Lieberman. Right.
    Ms. Cropp. As stated by the Mayor, we have erasers on 
pencils in order to correct mistakes, and if, in fact, anyone 
thinks that it was a mistake, then it is time to use that 
eraser and correct this very basic and fundamental principle 
for the District citizens.
    We have an opportunity, even if the Federal Government 
believes that it ought to protect itself, to still protect the 
Federal enclave in the format of Federal buildings and keep 
that sacrosanct, while at the same time not disenfranchising 
600,000 other people who make the District of Columbia their 
home and who are citizens.
    I believe that the court case that was just before the 
Supreme Court really spelled out some very excellent legal 
principles. I am not a lawyer so I cannot address them as they 
did, but it is just common sense. My grandmother said when I 
went to college, she was very thrilled and she hoped that it 
was just one of many degrees that I may have, but always 
remember, if you do not have common sense, none of the degrees 
will matter to a hill of beans.
    Chairman Lieberman. That is right.
    Ms. Cropp. And it is just common sense that the District 
citizens should not be disenfranchised, and particularly when 
the intent initially was for us to have voting representation.
    Chairman Lieberman. Senator Pendleton, would you like to 
add anything?
    Ms. Pendleton. I would just like to say that I have not 
heard any persons say too much against this particular bill. 
Now, the Statehood bill, yes. This bill, for just voting 
rights, no, because, in fact, there are those who say that this 
bill will pass. The other bill you had will not. So they are 
thinking that this bill, this voting bill, this bill to just 
vote, will pass and that those persons who are for the 
Constitution and for saying what we are going to do and 
everything, that one bill is for now and, therefore, we should 
just push and push all of our efforts into the voting bill and 
let it rest.
    Chairman Lieberman. Thank you. I thank the three of you 
very much for joining this cause, for articulating it very 
effectively, and also for giving real texture to the 
relationship between the Federal Government and the Government 
of the Capital City and the Capital City, which just to me, in 
practical terms, strengthens the argument for voting rights. I 
appreciate your being here.
    Mayor Williams. Thank you, Mr. Chairman.
    Ms. Cropp. Thank you.
    Ms. Pendleton. Thank you.
    Chairman Lieberman. Thank you very much.
    We will now call the third panel, Wade Henderson, Executive 
Director, Leadership Conference on Civil Rights; Adam Kurland, 
Professor of Law, Howard University School of Law; and Jamin 
Raskin, a Professor at Washington College of Law, American 
University.
    Gentlemen, thanks for being here. I appreciate the 
opportunity to hear from your experience and expertise on the 
subject before us.
    Mr. Henderson, you are a familiar, and in this case that is 
a positive statement, face and voice in the halls of Congress 
and always a very effective one on behalf of the Constitution 
and the basic rights that define our Nation, much more than its 
borders do, so we look forward to your testimony now.

TESTIMONY OF WADE HENDERSON,\1\ EXECUTIVE DIRECTOR, LEADERSHIP 
                   CONFERENCE ON CIVIL RIGHTS

    Mr. Henderson. Thank you, Mr. Chairman, and thank you 
especially for the opportunity to testify this afternoon on 
voting representation in Congress for the citizens of the 
District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Henderson appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    My name is Wade Henderson and I am privileged to be the 
Executive Director of the Leadership Conference on Civil 
Rights. The Leadership Conference consists of more than 180 
national organizations representing persons of color, women, 
children, labor unions, individuals with disabilities, older 
Americans, major religious groups, gays and lesbians, civil 
liberties and human rights organizations. Together, over 50 
million Americans belong to organizations that comprise the 
Leadership Conference on Civil Rights.
    The Leadership Conference strongly supports efforts to give 
citizens of the District of Columbia full voting representation 
in the U.S. Congress. At the outset of this hearing, I want to 
commend you, Mr. Chairman, for your leadership on this 
important issue and on the introduction of your bill, S. 603, 
the No Taxation Without Representation Act. The Leadership 
Conference fully supports this bill, along with its counterpart 
in the House of Representatives, introduced, as you noted, by 
Representative Eleanor Holmes Norton.
    The right to vote is fundamental in our democracy. The 
struggle to obtain voting rights for all Americans has long 
been at the heart of the fight for civil rights. The Congress 
has enacted many important laws over the years protecting and 
enhancing the right to vote, such as the 13th, 14th, and 15th 
Amendments to the Constitution, the Voting Rights Act of 1965, 
and the National Voter Registration Act of 1993.
    Your bill, Mr. Chairman, continues the distinguished path 
of providing the full measure of the right to vote for all 
Americans. It is a top priority on the legislative agenda of 
the Leadership Conference.
    As you have noted, Mr. Chairman, voting is the language of 
democracy. Without it, the citizens of the District are the 
silent voice in the wilderness, spectators to democracy, right 
in the literal shadow of the very governing institutions that 
serve as a shining beacon to the rest of the world. This is not 
right, this is not fair to have two distinct classes of 
citizens, those of the 50 States and those of the District of 
Columbia.
    Now, the Leadership Conference holds as one of its guiding 
tenets that all citizens of the United States must be treated 
equally under the law. We have long supported the civil rights 
movement here in our Nation's capital, championing the voting 
rights for the citizens of the District and the popular 
election of local officials.
    The tragedy of this past September 11 terrorist attacks on 
our Nation pointed out the importance of the District of 
Columbia and the paradox of denying D.C. residents the full 
measure of participation in our government. On that terrible 
day, terrorists struck at our financial center in New York City 
and our government center here in Washington. The attack was 
one on all Americans, without regard to race, color, religion, 
sex, national origin, disability or sexual orientation, and 
Americans from around the Nation opened their hearts with 
unparalleled generosity to help the victims of this tragedy.
    The citizens of the District of Columbia were no exception. 
D.C. residents were part of the first responders to the 
Pentagon attack. Members of the District of Columbia National 
Guard were among the first to be called up to serve our Nation 
during this time of crisis. And, sadly, D.C. had its share of 
victims in the September 11 attack. Yet D.C. residents have no 
voting representation in the very government they seek to 
preserve and defend.
    Now, the Leadership Conference believes it is now time to 
move forward on this important legislation under discussion 
today. Residents of the District dutifully comply with their 
civic responsibilities and obligations under our democratic 
form of government. They pay taxes and they serve in our Armed 
Forces. And yet residents of the District are blatantly denied 
and deprived many of the essential rights and privileges of 
citizenship enjoyed by all other Americans. This issue, 
therefore, is one of simple justice and fairness.
    Now, we have noted, of course, that we pay income tax and 
that we serve, and you have noted all of this, as well, and as 
you referred in just your past comments, the fact that the 
District has been denied voting representation has not always 
been the case. Before the District was established in 1800, 
residents of the City of Washington were able to vote for 
Representatives in Congress as either citizens of Maryland or 
Virginia. There is no prohibition on restoring voting 
representation in Congress for the citizens of the District of 
Columbia.
    This issue has long had bipartisan support in Congress and 
I would hope that it would do so again today. In 1978, both the 
Senate and the House passed a constitutional amendment to grant 
full representation to D.C. residents, and although that 
amendment failed to be ratified by the required 38 States, it 
was supported by many prominent Republicans and Democrats, and 
in my written testimony, Mr. Chairman, I note various 
individuals, from Senator Bob Dole to President Richard Nixon 
to Senator Robert Byrd, among others, who have noted the 
importance of voting representation for the District.
    Before I conclude, Mr. Chairman, let me address the issue 
of taxation without representation. Some will argue that if 
this bill were enacted, it would turn the District of Columbia 
into a haven for tax dodgers, and certainly nothing could be 
further from the truth. This bill is aimed at achieving full 
voting representation in Congress for the citizens of the 
District, and as we have noted, they do pay more taxes and do 
all those things that are required by citizens of the Nation. 
Its title, that is the No Taxation Without Representation, of 
course, harkens back to the historic foundations of American 
democracy.
    This bill is aimed at moving the Congress to take positive 
action on this issue but does not, in fact, create voting 
representation in Congress for Representatives of the District 
of Columbia. The bill merely makes clear that until full voting 
representation is achieved, residents of the District should be 
treated more like their counterparts in the territories of the 
United States who do not pay Federal taxes.
    While the Leadership Conference supports providing full 
voting representation for the citizens of the District, we also 
believe that until this happens, it is important that District 
residents should be treated for tax purposes like their 
similarly situated counterparts in the territories of the 
United States.
    Since the attacks on the United States in September, we 
have been eloquently advocating to the international community 
for democracy abroad, and rightfully so. But it is now time to 
preach democracy at home, as well. We urge Congress to pass 
your bill, Mr. Chairman, and to bring democracy home to the 
citizens of the District of Columbia, and we should give those 
who live within the shadow of the capitol the basic right to 
enjoy full voting representation in the Congress of the United 
States. Thank you for the opportunity to appear before you 
today.
    Chairman Lieberman. Thanks, Mr. Henderson, for a very 
thoughtful statement. I look forward to asking some questions 
afterward.
    Professor Kurland, welcome. I look forward to your 
statement.

   TESTIMONY OF ADAM H. KURLAND,\1\ PROFESSOR OF LAW, HOWARD 
                    UNIVERSITY SCHOOL OF LAW

    Mr. Kurland. Mr. Chairman, thank you very much for inviting 
me to testify before this proceeding today. This hearing is a 
welcome and constructive step because the issue is, I believe, 
now being debated in the appropriate forum. However, Congress 
cannot by simple legislation grant D.C. citizens voting rights 
in Congress. A constitutional amendment is required.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kurland appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    The makeup of the Federal legislature is an essential 
ingredient of our federalism. Every school child is, or should 
be, familiar with the story of the Constitutional Convention 
and the so-called Great Compromise which resulted in each 
State's proportional representation in the lower House and 
equal representation in the Senate, and most historians agree 
that without this compromise, the work of the Constitutional 
Convention would never have been completed. In addition, the 
importance of this compromise can also be gleaned from the 
final clause in Article V of the Constitution, which concerns 
the constitutional amendment process, and it says, ``that no 
State without its consent shall be deprived of its equal 
suffrage in the Senate.''
    Representation in the Federal legislature is defined by 
clear, unambiguous constitutional requirements. The 
Constitution provides that the Senate of the United States 
shall be composed of two Senators from each State. It also 
requires that the House of Representatives be composed of 
members chosen by the people of the several States and that 
each member of Congress be an inhabitant of the State from 
which he shall be chosen.
    The District of Columbia, or in constitutional parlance, 
the seat of the Government of the United States, as it is 
referred to in Article I, Section 8, Clause 17, I believe, as 
presently constituted is not a State. Therefore, as presently 
constituted, the citizens of the District are not entitled to 
representation in the House or the Senate. The only way the 
District as presently constituted can achieve full voting 
representation in the House of Representatives and in the 
Senate is by constitutional amendment.
    The Statehood alternative, which raises other 
constitutional issues, is discussed in my written testimony and 
obviously is not part of the proposed bill before the Senate 
now.
    The controlling constitutional principle must be 
emphasized. Congress has a critical but non-exclusive role to 
play in the political process necessary to achieve any change 
in D.C.'s present status of no representation in the Federal 
legislature. Congress cannot by simple legislation provide the 
present District of Columbia citizens with voting rights. Such 
legislation would be unconstitutional.
    Legal arguments have been made that a variety of 
constitutional principles require that District citizens 
receive Congressional representation. Those arguments have been 
uniformly rejected by the courts. Moreover, any attempt to rely 
on Congress's enforcement powers to legislate pursuant to 
Section 5 of the 14th Amendment is also, in my view, misplaced. 
The present lack of D.C. representation in the Federal 
legislature is a feature of American federalism, is part of the 
current constitutional structure, and does not violate equal 
protection, due process, or any other constitutional principle.
    It is true that Congress in other contexts often treats the 
District ``as if it were a State'' for a variety of legislative 
purposes, principally for funding allocation of various Federal 
programs pursuant to Congress's Article I powers. However, 
Congress does not possess the legislative authority to decree 
the District a State for the purposes of providing or 
allocating representation in the national legislature.
    With respect to the proposed legislation to either grant 
the District representation or to make it a tax-free haven, 
exempting D.C. residents from taxes until representation is 
achieved, that particular proposal is flawed for a couple of 
reasons. First, the either/or tradeoff has essentially been 
acknowledged as, basically, a well-placed rhetorical device, 
but the proposal has very little chance of ever being enacted.
    Second, the ``taxation without representation'' slogan is 
actually inapposite and has been conclusively refuted in many 
other fora over the last several decades. In short, District 
residents are simply not victims of a far-off imperial power 
imposing taxes selectively as a means of economic exploitation.
    Third, the either/or tradeoff is based on a faulty legal 
premise because Congress, in any event, does not possess the 
unilateral authority to enact legislation conferring D.C. 
voting rights.
    And fourth, despite Mr. Henderson's comments, it would not 
make the District a tax evader haven or a tax dodge haven, but 
if the District was set up as a tax-free zone, there are many 
Americans, and I am quoting Professor Raskin, who even kind of 
half-jokingly but half-seriously has commented that a lot of 
Americans do not like taxation with representation, let alone 
taxation without representation, that if the District were made 
a tax-free haven, it would be very alluring, if that is the 
proper word, so that people might want to move in and say they 
would rather not pay Federal income taxes than vote. And we can 
laugh about that and that obviously deprecates the principle, 
and I do not mean to make light of it, Mr. Chairman, but given 
the low voter turnout in many elections, it cannot be just 
laughed off as a joke.
    Upon two-thirds of the vote of both Houses of Congress, 
Congress can propose a constitutional amendment to be submitted 
to the States for ratification. Ratification of a proposed 
constitutional amendment requires approval of three-fourths of 
the State legislatures or three-fourths of specifically called 
State constitutional conventions. A proposed constitutional 
amendment could provide for the District to elect a member of 
the House only or could provide for Senate representation, 
either with one or two Senators.
    A proposed constitutional amendment to provide the District 
with representation in the Federal legislature failed in 1978, 
as has been mentioned several times. It would seem to me that 
if equal voting rights is the goal sought to be achieved, that 
would seem to militate in favor of a proposal that the District 
receive proportional representation in the House and two U.S. 
Senators. Political reality must acknowledge that this formula 
would appear to guarantee two additional Democratic Senators 
for the foreseeable future.
    However, the body politic must demonstrate the ability to 
rise above partisan politics. President Bush has often said 
that political Washington too often focuses on what is good for 
a particular party instead of what is good for America. This 
issue actually provides all involved an opportunity to 
demonstrate that America both inside and outside of the beltway 
will do what is best for America.
    Upon two-thirds vote of both Houses of Congress, Congress 
should send a proposed constitutional amendment out to the 
States for ratification, or Congress could choose to sidestep 
their respective State legislatures altogether. Article V of 
the Constitution gives Congress the option of the means of 
ratification. Congress can choose to send the proposed 
amendment to State legislatures or to State constitutional 
conventions expressly convened to consider the sole issue of 
ratification of the proposed constitutional amendment.
    Congress clearly possesses the authority to propose a 
constitutional amendment to provide the District with voting 
rights for Federal elective office. Congress took an analogous 
path in 1960 when it submitted the 23rd Amendment to the States 
for ratification and thus provided for the District's 
participation in Presidential elections through the Electoral 
College, and I believe that constitutional amendment was 
ratified in less than a year.
    Just to conclude, there are three related points that I 
think warrant brief measure.
    Chairman Lieberman. You can take a moment or two to finish 
your statement. Go right ahead.
    Mr. Kurland. All right. Thank you. Three related points, 
then, warrant mention. One could argue that it is 
unconstitutional to provide voting rights in the Senate to a 
non-State entity such as the District of Columbia even by 
purported constitutional amendment. As noted above, the 
language that I set forth in Article V provides that no State 
without its consent shall be deprived of equal suffrage in the 
Senate. What exactly does that mean? It obviously has never 
been litigated.
    I do not advocate this position, but some have argued that 
it perhaps could imply that the constitutional provision 
concerning the make-up of the Senate is, in effect, unamendable 
and that it would take a unanimous vote of the States to ratify 
a constitutional amendment providing for D.C. voting rights as 
opposed to creating a new State. How such an amendment would be 
challenged if it were ratified by less than all of the States 
raises an interesting legal question, to say the least.
    Second, in a similar vein, one might argue that the 
inherent fabric of the Great Compromise includes the core 
principle that the citizens were represented in the House and 
the States as States are the only body that gets representation 
in the Senate. It is also undeniable that the founders rejected 
pure majoritarian democracy in the original makeup of the 
Constitution. Under that scenario, the District should get a 
House vote but no Senate vote.
    However, if one goes through the process of amending the 
Constitution today, the 18th Century principles should not be 
determinative. It is contrary to most of the modern equal 
voting rights principles that have evolved over the last half-
century, notwithstanding some of the language in the Supreme 
Court decision of Bush v. Gore, which I am sure the Chairman is 
well familiar with.
    Chairman Lieberman. It rings familiar to me. It gives me a 
headache. [Laughter.]
    Mr. Kurland. Moreover, regardless of whether these above 
principles accurate reflect the original nature of the Union, 
the concept of a State as a distinct political entity apart 
from its citizens was substantially eroded, if not effectively 
eliminated, with the passage of the 17th Amendment in 1913, 
which provided for the direct election of Senators.
    Third, providing the District with only one Senate vote, 
which reflects another sort of compromise proposal that has 
been bantered about in the last 20 or 30 years, would actually 
abrogate the constitutional role of the Vice President to break 
ties. Although the Vice President has been called on to break 
ties on Senate votes infrequently throughout history, the Vice 
President's role as Senate tie-breaker is constitutionally 
significant and should not be eliminated as an unintended 
consequence of an apparently unrelated constitutional amendment 
that would provide for an odd number of Senators. And I also 
note that just, I believe, yesterday, Vice President Cheney 
cast a tie-breaking vote, so the situation is not simply one 
that academics fiddle with. In conclusion----
    Chairman Lieberman. We will have your whole statement 
printed in the record.
    Mr. Kurland. Thank you, Mr. Chairman. The U.S. Conference 
of Mayors recently has come out in support of D.C. voting 
rights. This is a positive indication that the political 
process quest for D.C. voting rights has moved to the 
grassroots level State by State, where I believe it is 
absolutely constitutionally necessary to achieve D.C. voting 
rights in the Federal legislature. If the denial of D.C. voting 
rights in the national legislature is so antithetical to the 
democratic ideals which Americans cherish, a proposed 
constitutional amendment for D.C. voting rights should be able 
to win passage in three-fourths of the States easily, and to 
the extent that the statistics have been mentioned here 
concerning 80 percent in polls, that is consistent with that 
proposition.
    To the extent Americans wear democratic ideals more openly 
on our sleeves in the post-September 11 world, that should work 
in favor of passage of a constitutional amendment. We should 
not be afraid to ``have to resort to'' an inconvenient or even 
difficult constitutional amendment process. As Abraham Lincoln 
said, ``A majority held in restraint by constitutional checks 
and limitations is the only true sovereign of a free people.''
    Americans of all political parties should cherish and 
embrace the solemn challenge and opportunity to amend the 
Constitution. That is good not only in some grand civics lesson 
sense, not only good in some academic sense, but it is good for 
the citizens of the District of Columbia, the citizens of our 
Nation, and it is a shining example for the world. All who 
embrace D.C. voting rights should embrace the opportunity to 
make the case for constitutional reform to the people of the 
States. If 21st Century equal voting rights principles cannot 
prevail in the political marketplace of ideas over one small 
aspect of 18th Century structural principles of federalism, 
that would suggest to me that the American people still find 
contemporary value in those original constitutional federalism 
principles. If the poll numbers are correct, that should not be 
the case and the constitutional amendment process is the 
appropriate legal and constitutional way to achieve the result.
    Thank you very much for your time, Mr. Chairman.
    Chairman Lieberman. Thank you, Professor Kurland. So if I 
can paraphrase or summarize, you do support voting rights for 
District residents?
    Mr. Kurland. I support voting rights for District 
residents, yes.
    Chairman Lieberman. Right. But your argument is that can 
only be achieved by constitutional amendment?
    Mr. Kurland. I am--I should not say absolutely certain--I 
speak with a reasonable degree of certainty that any D.C. 
voting rights legislation passed by the Congress would be 
unconstitutional and that the voting rights representation in 
both Houses of Congress requires a constitutional amendment.
    Chairman Lieberman. Thank you.
    Professor Raskin, I do not want to push your testimony in a 
particular direction, but am I correct that you disagree with 
that contention?
    Mr. Raskin. Yes.
    Chairman Lieberman. And you will speak to it as part of 
your testimony?
    Mr. Raskin. Indeed, I will, and I will skip over several 
pages of moral outrage and get right to the constitutional 
analysis. [Laughter.]

TESTIMONY OF JAMIN B. RASKIN,\1\ PROFESSOR, WASHINGTON COLLEGE 
                OF LAW, THE AMERICAN UNIVERSITY

    Mr. Raskin. I would like to say----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Raskin appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Chairman Lieberman. You can give us a little moral outrage. 
That is fine. [Laughter.]
    Mr. Raskin. Has there not been enough of that already? 
Actually, hearing your statement, Professor Kurland, gave me a 
little more moral outrage. I never yet heard before floated the 
proposition that a constitutional amendment could itself be 
unconstitutional. I thought that enemies of voting rights for 
D.C. were gathering the idea that you needed a constitutional 
amendment, and apparently for some of them, even that is not 
going to be enough. Presumably, an act of God or an amendment 
to the Bible would be required to make it happen.
    Mr. Kurland. I did not make that up.
    Mr. Raskin. I trust you did not.
    The founding idea of the country is that governments derive 
their just powers from the consent of the governed, as 
Jefferson put it in the Declaration of Independence, which was 
actually signed by several people who represented the land that 
the District of Columbia is now on.
    Our whole history has been a struggle to become a 
democracy, to transform the original republic of Christian, 
white, male, property owners over the age of 21 into what that 
great Republican President Abraham Lincoln called government of 
the people, by the people, and for the people.
    The purpose of the District Clause, as you noted, Senator 
Lieberman, and as I describe in detail in this law review 
article \2\ I will leave with you, was to assure the police 
security and military defense of the capital city, not to 
disenfranchise a large population of American citizens.
---------------------------------------------------------------------------
    \2\ Article entitled ``Is This America? The District of Columbia 
and the Right to Vote,'' appears in the Appendix on page 111.
---------------------------------------------------------------------------
    Chairman Lieberman. Talk about that a little bit in the 
historical context, if you would.
    Mr. Raskin. I would, indeed. It goes back to June 21, 1783, 
when the Continental Congress in Philadelphia was meeting in 
the Pennsylvania State House and there was an unruly band of 
disgruntled Revolutionary War soldiers who had not been paid 
yet and they had actually come to confront not Congress, but 
the Executive Council of Pennsylvania, which was meeting on the 
second floor as opposed to the first floor. When the 
Congressmen on the first floor appealed to the Executive 
Council upstairs to get the Pennsylvania militia to put down 
this brewing uprising outside, they refused to do it because 
they did not want a violent confrontation.
    Madison later called this incident disgraceful and used it 
during the constitutional debates to argue for the need for 
exclusive Federal jurisdiction over the seat of Federal 
Government. If you go look at the constitutional debates, you 
see references replete throughout the debates to this incident.
    Chairman Lieberman. But again, no comment there or no 
action regarding the voting rights of residents of the capital 
city.
    Mr. Raskin. No, and there were very few people--well, first 
of all, we did not even know where the new District was going 
to be. It had not been sited yet. And so all of the members of 
the Constitutional Convention were voting on it in sort of the 
original position, if you will, not knowing where it would be, 
and no one was thinking that voting rights would ever be at 
stake. After all, they had just fought a revolution against the 
principle ``no taxation without representation'' and it was 
assumed that would not happen in the new United States.
    And, indeed, when the Federal District was finally sited on 
the banks of the Potomac in 1791 with Congress accepting the 
lands from Maryland and Virginia, the residents continued to 
vote for a decade in Federal elections in Maryland or in 
Virginia and that only ended with the passage of the Organic 
Act in 1801. No one thought that it was unconstitutional.
    Now, the D.C. Corporation Counsel brought a lawsuit in 
1998, Alexander v. Daley, which pointed out this history and 
argued that the modern ``one person, one vote'' guarantee makes 
disenfranchisement unconstitutional and asked for restoration 
of the right to vote that was lost in 1801. By a two-to-one 
vote, the panel rejected the argument and found continuing 
permission for disenfranchisement in the structure of State-
based representation, which was the argument that Professor 
Kurland was making.
    Nonetheless, the majority observed that there is ``a 
contradiction between the democratic ideals upon which this 
country was founded in the exclusion of District residents from 
Congressional representation.'' It remarked that none of the 
parties, including the Justice Department, ``contests the 
justice of the plaintiffs' cause.'' Yet the judges in the 
majority accepted the argument that the court was powerless to 
order a change and that any relief ``must come through the 
political process.''
    So the ball is in your court, and this could mean three 
things. First, Statehood, which is not on the table.
    Second, it might mean a statute conferring full voting 
rights and Congressional representation, a kind of Voting 
Rights Act for Washington, which is how I understand the No 
Taxation Without Representation bill submitted by Congresswoman 
Norton. Would it be constitutional, back to your question? To 
my mind, yes. Congress treats the District explicitly as though 
it were a State for 537 statutory purposes that I laboriously 
counted in my Harvard Civil Rights-Civil Liberties law review 
article, from Federal taxation to military conscription to 
highway funds, education funds, national motor-voter, and so 
on.
    Chairman Lieberman. It counts as a State in the sense that 
it is treated in all those statutes--my question, I guess, 
answers itself--but as if it were a State?
    Mr. Raskin. There is a line in almost every statute which 
says, for the purposes of this statute, the District of 
Columbia shall be treated as though it were a State.
    Chairman Lieberman. So it is quite explicit. OK.
    Mr. Raskin. Moreover, Congress and the Supreme Court have 
treated District residents as residents of a State for 
constitutional purposes, from the Full Faith and Credit Clause 
to diversity jurisdiction under Article III, and there is an 
interesting litigation history to that. Originally, back in the 
1800's, the Supreme Court said that because Article III of the 
Constitution referred to diversity jurisdiction as applying to 
citizens among the States, it did not apply to D.C., and said 
the District residents could not get into Federal Court on 
diversity grounds. Congress passed a statute saying the 
District should be treated as a State for diversity purposes 
and the Supreme Court upheld that in the 20th Century. So why 
can Congress not treat the District as though it were a State 
for the even more fundamental purpose of representation?
    Now, some, like Professor Kurland, would invite us to 
believe that the District Clause gives Congress power to do 
anything it wants to people in the District except give them 
the right to vote, but this straightjacket approach undermines 
the idea of the Constitution as the charter of democratic 
sovereignty for we the people. This seminal phrase should 
include all of us, and certainly did include everyone who was 
on the lands that would become the District when the 
Constitution was written.
    As Justice Kennedy wrote in U.S. v. Thornton in 1995, the 
Congress is not a confederation of nations in which separate 
sovereigns are represented by appointed delegates, but is 
instead a body composed of the representatives of the people. 
So I have no problem in saying that Judge Louis Oberdorfer, who 
was the senior and dissenting judge on the three-judge panel in 
Alexander v. Daley, was right. Not only can Congress use its 
ample powers over the District to fully enfranchise the people, 
it must do so, and I am submitting with my statement a complete 
and very thoughtful legal analysis of this problem by two fine 
lawyers, Walter Smith and Elise Dietrich, who were co-counsel 
with me and the Corporation Counsel in Alexander v. Daley.
    Now, there are those like Professor Kurland who attack a 
D.C. Voting Rights Act as unconstitutional, and indeed, voting 
rights advocates should be sober about the fact that 
conservative views are more prevalent on the Supreme Court 
today than the progressive views of, say, Justices Marshall and 
Brennan.
    Senator Lieberman, you certainly do not need any tutorials 
about the distinctive judicial activism that has appeared 
recently on the Supreme Court to control elections and voting 
rights. Even looking at the broader canvas, a narrow majority 
in this court in the past few years has struck down in whole or 
in part the Gun Free School Zones Act, the Violence Against 
Women Act, the Religious Freedom Restoration Act, the Brady 
Handgun Violence Prevention Act, the Fair Labor Standards Act, 
the Low-Level Radioactive Waste Policy Act, and so on.
    How much faith should we have that the Court's majority 
would ultimately accept a D.C. Voting Rights Act as 
constitutional? I do not know. But all that you need to know as 
legislators is that you, like Thomas Jefferson, see the 
Constitution's legitimacy as resting on the consent of the 
governed and that you are convinced that Congress's powers over 
the District must be sufficient to effectuate not just the 
burdens but the rights of democratic citizenship.
    There is, finally, the possibility of a constitutional 
amendment treating the District as though it were a State for 
purposes of representation. A D.C. voting rights amendment, at 
least I thought until I heard Professor Kurland's testimony, 
would definitely be constitutional. It would require a two-
thirds vote in both Houses and ratification by three-quarters 
of the States. As an amendment, it should be safe from judicial 
attack and would be more durable than a statute, which could be 
more easily repealed. Congresswoman Norton referred to her 
experience in voting in the Committee of the Whole, where she 
won, through really brilliant parliamentary persuasion, the 
right to vote, only to see it taken away a few years later when 
the House changed hands.
    Now, one strong argument for a constitutional amending 
strategy is that Washington can actually do America a big favor 
this way. I say this because as we saw in the 2000 election, 
the right to vote nationally is a vulnerable thing. As the 
Supreme Court's majority found in Bush v. Gore, ``there is no 
federally protected constitutional right to vote in 
Presidential elections.'' In this sense, we can see 
Washington's status as not just exceptionally egregious in its 
nearly categorical disenfranchisement, but as exemplary and 
illustrative of the weakness of the right to vote generally.
    Now, Congresswoman Norton herself is a professor of 
constitutional law who has done everything in her power to 
advance democracy for Washington within the existing 
constitutional structure and her perseverance is really 
astounding. I think she understands that the moment may come--
it may not come, but it may come when current restrictive 
understandings of the Constitution become an obstacle to 
democracy and the amending strategy that was tried in 1978 may 
have to be revived. That moment has not necessarily arrived yet 
and there may, indeed, be the political will in Congress to 
pass the No Taxation Without Representation Act.
    The point she brings before America today is that, 
ultimately, what counts most is not the means, but the end, 
full voting rights and representation for everyone in 
Washington, which is the birthright of all American citizens, 
including her constituents.
    Chairman Lieberman. Thanks very much, Professor Raskin.
    Mr. Henderson, do you want to get into this debate between 
the two law professors on the question of the----
    Mr. Henderson. Well, I---- [Laughter.]
    Chairman Lieberman. Of course, the question is on whether, 
by statute, we can give voting rights to residents of the 
District.
    Mr. Henderson. Thank you, Mr. Chairman. I also teach and am 
the Joseph Rowe Professor of Public Interest Law at the 
University of the District of Columbia Law School.
    Chairman Lieberman. Right. I apologize for not remember-
ing----
    Mr. Henderson. No.
    Chairman Lieberman [continuing]. But I see you in your 
Director position.
    Mr. Henderson. Well, no, and it is a privilege to be here 
on behalf of the Leadership Conference, but I do want to pick 
up on one point that Professor Kurland noted.
    To assume that one is required to resort to a 
constitutional amendment, which is a process of last resort 
when all other permissible means of achieving the end result 
that we desire, in this instance, it seems to me is premature. 
Now, he does make note, and I found it interesting because it 
is seemingly contradictory on its face, on the one hand, he 
notes his support for the right to vote on behalf of District 
residents. He notes, however, the need to pursue a 
constitutional amendment, but then further in his remarks 
suggests that a constitutional amendment itself may prove to be 
unconstitutional and for that reason raises questions about the 
validity of that process as it relates to addressing the 
problem of achieving the right to vote on District residents.
    I thought the brilliance of the bill that both you and 
Congresswoman Norton have submitted is that it isolates first 
the fundamental principle at stake, which is providing the 
citizens of the District of Columbia their right to vote not so 
much as citizens of the District of Columbia, but rather 
hearkening back to their status as citizens of the United 
States and arguing first and foremost that because they are 
citizens of the United States, they have to be treated equally 
with other citizens of the United States. Now, it happens that 
they live in the District of Columbia, and yes, there is a 
District Clause in the Constitution that regulates certain 
functions as citizens of the District of Columbia. But it does 
not ultimately pertain to their status as citizens of the 
United States, nor does it preclude their right to vote in that 
capacity.
    It seems to us that the argument that you have made, which 
is first provide voting rights for the District, let us decide 
that question first, and then the issue of what form the rights 
will take does obviously have to be decided subsequently. But 
let us isolate that principle first. Let us have Congress vote 
on the determination of whether citizens of the District of 
Columbia in their role as citizens of the United States should 
have that right to vote is exactly the way to go.
    Second, what you have said is that until that voting right 
has been achieved, citizens of the District should be given 
status comparable to citizens in the territories, which is to 
say if you cannot vote with the full rights and privileges 
pertaining thereto, as with other citizens, you should be given 
an exemption from Federal taxation comparable to those 
residents who live in the territories, and it does seem to me 
that frames the issue in its most simple and yet its purest 
term, to allow voting rights to be conferred on behalf of the 
citizens.
    Now, in the event that Congress, or rather that the courts 
determine that is an unconstitutional grant of authority on 
behalf of District residents, the amendment process is still 
open and certainly the way has been cleared to determine that 
anything less than that would be inadequate. But as a first 
step, it seems to me that getting Congress to recognize the 
importance of the right, isolating that issue, asking Members 
of Congress to vote on the pure question of whether they 
believe District residents are entitled to the right to vote, 
and if they are not entitled to the right, or are entitled to 
the right to vote, should they have it or should they not in 
terms of the taxation that they pay it seems to me is the way 
to go.
    So I would suggest that while Professor Kurland's arguments 
may have some relevance and pertinence down the road, it is 
only after we have tried this first step, it seems to me, 
before we then get to the question of whether a constitutional 
amendment is required, and I see that, therefore, as a straw 
man, an issue that, in fact, has been raised as a barrier but, 
in fact, has never been legitimately tested in terms of its 
functions.
    Chairman Lieberman. I thank you for that statement. I 
cannot speak for Congresswoman Norton, but I say for myself, I 
do not think I could have said it better myself. The point is 
that we are trying to get our colleagues here to focus on the 
principle and the rights that go to residents of the District 
because they are citizens of the United States, and then to go 
to what the exact form of remedy is, if you will, or of 
granting those rights.
    But the other point, although we understand that, 
practically, residents of--we are not asking for no taxation 
nor is it a practical goal. On the other hand, the underlying 
principle that we are trying to elevate and educate our 
colleagues with is, in fact, validated by the reference you 
make and one other witness made to the territories, because 
there, the residents of territories do not have voting rights 
and they pay no taxes. So this is not just a rhetorical 
flourish based on the no taxation without representation 
history, but it, I think, underlines the principle that we are 
trying to make here.
    I regret that there is a vote on now and so I cannot stay 
as long as I would like, but Professor Kurland, do you want to 
give me a quick response to the comments of your colleagues on 
this panel? Now, I would say that two law professors are on 
either side.
    Mr. Kurland. It is not uncommon that in any forum on this 
issue I am always outnumbered. [Laughter.]
    But again, I am here doing, I believe, a civic duty in 
raising legitimate constitutional legal issues. I have no stake 
in this one way or another. It is only when I am with Professor 
Raskin that I get castigated as a conservative, which I think I 
am not. I mean, I am a registered Democrat. I voted for 
Presidential electors for Lieberman and Gore in the State of 
Maryland proudly. [Laughter.]
    Mr. Kurland. Recognizing that I had no direct vote----
    Chairman Lieberman. My respect for your judgment is 
improving, increasing. [Laughter.]
    Mr. Kurland. But what is important is that while it might 
be easy to kind of try to marginalize the constitutional issues 
I raised, it is done in manners that, I respectfully submit, is 
really not intellectually accurate, and let me just make a 
couple of brief points because I know we are short on time.
    The abomination of slavery was not taken out of the 
Constitution by Civil War. It required a constitutional 
amendment. The women's right to vote required a constitutional 
amendment. D.C.'s ability to cast electoral votes for 
President, constitutional amendment. The District to be treated 
even temporarily as a territory, well, the District gets to 
vote for President, your three electoral votes. But if the No 
Taxation Without Representation, if the argument is to be just 
like the territories, that would unravel a variety of other 
legal issues where the District is treated differently than the 
territories. I am not sure that makes a lot of sense.
    Chairman Lieberman. Forgive me, because I am going to miss 
the vote. It also gives me the chance to have the last word, 
and in this case to say that, on the other hand, Statehood is 
conferred by statute. Now, I understand it implicates different 
provisions of the Constitution, but the grant of Statehood, 
notwithstanding all the instances you have given of what had to 
occur through constitutional amendments----
    Mr. Kurland. That is correct. Statehood is granted by 
statute, but that would put the--there are a variety of other 
constitutional issues which Statehood raises that we have not 
discussed here, but Statehood is passed by a simple majority of 
both Houses, signed by the President, and that would make New 
Columbia or whatever the 51st State would be called on equal 
footing and would be a State, entitled to representation in the 
Federal legislature in both Houses of Congress.
    Chairman Lieberman. Thank you. This has been a very 
stimulating panel and maybe we will do it again sometime soon 
when we come back.
    I thank you all. It has been for me a very important day. 
All the documents that have been referred to will be entered 
into the formal record of the hearing. We will leave the record 
of the hearing open for 2 weeks, if others wish to submit 
testimony or additional submissions for the record.
    I would like to insert in the record a statement from Betty 
Ann Kane \1\ on behalf of the Board of Directors of the 
Committee for the Capital City and an article entitled 
``Implicit Statehood'' by Timothy Cooper, Charles Wesley 
Harris, and Mark David Richards.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kane with attachments appears in 
the Appendix on page 171.
    \2\ Article entitled ``Implicit Statehood'' by Timothy Cooper, 
Charles Wesley Harris, and Mark David Richards appears in the Appendix 
on page 174.
---------------------------------------------------------------------------
    I just want to state again, and I hope this message is 
clear after the hearing, Congresswoman Norton and I and our 
cosponsors are quite serious about this and we are going to 
pursue it to the best of our ability in the months and years 
ahead. I thank all of you for contributing to a very important 
hearing.
    We are adjourned.
    [Whereupon, at 4:30 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Today this Committee is discussing voting rights for the residents 
of the District of Columbia. I realize this is an important issue to 
many of the people who live in the city. Over the past several years, 
there have been several proposals to deal with this issue, including 
granting statehood to the District which would add two Senators and at 
least one Representative to Congress. Others have suggested giving the 
District's non-Federal area back to Maryland or allowing D.C. residents 
to vote in Maryland.
    One of the most important things we should remember is that the 
nation's capital was created on land originally part Virginia and 
Maryland. The founders didn't consider the city a state and didn't 
provide for representation in Congress.
    Even the city's name reflects the fact that it is not a State. It's 
a ``district.''
    As for allowing Maryland to take control of the District's non-
Federal land, this at least makes sense. In fact, the areas of 
Arlington and Alexandria in Virginia which were originally part of the 
District were given back to Virginia in the 1840's, so there is at 
least some precedence for this.
    I have a feeling that this issue won't be resolved anytime soon. 
However, I appreciate the time our witnesses have taken to be here 
today, and I am looking forward to hearing from them.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 80602.001
    
    [GRAPHIC] [TIFF OMITTED] 80602.002
    
    [GRAPHIC] [TIFF OMITTED] 80602.003
    
    [GRAPHIC] [TIFF OMITTED] 80602.004
    
    [GRAPHIC] [TIFF OMITTED] 80602.005
    
    [GRAPHIC] [TIFF OMITTED] 80602.006
    
    [GRAPHIC] [TIFF OMITTED] 80602.007
    
    [GRAPHIC] [TIFF OMITTED] 80602.008
    
    [GRAPHIC] [TIFF OMITTED] 80602.009
    
    [GRAPHIC] [TIFF OMITTED] 80602.010
    
    [GRAPHIC] [TIFF OMITTED] 80602.011
    
    [GRAPHIC] [TIFF OMITTED] 80602.012
    
    [GRAPHIC] [TIFF OMITTED] 80602.013
    
    [GRAPHIC] [TIFF OMITTED] 80602.014
    
    [GRAPHIC] [TIFF OMITTED] 80602.015
    
    [GRAPHIC] [TIFF OMITTED] 80602.016
    
    [GRAPHIC] [TIFF OMITTED] 80602.017
    
    [GRAPHIC] [TIFF OMITTED] 80602.018
    
    [GRAPHIC] [TIFF OMITTED] 80602.019
    
    [GRAPHIC] [TIFF OMITTED] 80602.020
    
    [GRAPHIC] [TIFF OMITTED] 80602.021
    
    [GRAPHIC] [TIFF OMITTED] 80602.022
    
    [GRAPHIC] [TIFF OMITTED] 80602.023
    
    [GRAPHIC] [TIFF OMITTED] 80602.024
    
    [GRAPHIC] [TIFF OMITTED] 80602.025
    
    [GRAPHIC] [TIFF OMITTED] 80602.026
    
    [GRAPHIC] [TIFF OMITTED] 80602.027
    
    [GRAPHIC] [TIFF OMITTED] 80602.028
    
    [GRAPHIC] [TIFF OMITTED] 80602.029
    
    [GRAPHIC] [TIFF OMITTED] 80602.030
    
    [GRAPHIC] [TIFF OMITTED] 80602.031
    
    [GRAPHIC] [TIFF OMITTED] 80602.032
    
    [GRAPHIC] [TIFF OMITTED] 80602.033
    
    [GRAPHIC] [TIFF OMITTED] 80602.034
    
    [GRAPHIC] [TIFF OMITTED] 80602.035
    
    [GRAPHIC] [TIFF OMITTED] 80602.036
    
    [GRAPHIC] [TIFF OMITTED] 80602.037
    
    [GRAPHIC] [TIFF OMITTED] 80602.038
    
    [GRAPHIC] [TIFF OMITTED] 80602.039
    
    [GRAPHIC] [TIFF OMITTED] 80602.040
    
    [GRAPHIC] [TIFF OMITTED] 80602.041
    
    [GRAPHIC] [TIFF OMITTED] 80602.042
    
    [GRAPHIC] [TIFF OMITTED] 80602.043
    
    [GRAPHIC] [TIFF OMITTED] 80602.044
    
    [GRAPHIC] [TIFF OMITTED] 80602.045
    
    [GRAPHIC] [TIFF OMITTED] 80602.046
    
    [GRAPHIC] [TIFF OMITTED] 80602.047
    
    [GRAPHIC] [TIFF OMITTED] 80602.048
    
    [GRAPHIC] [TIFF OMITTED] 80602.049
    
    [GRAPHIC] [TIFF OMITTED] 80602.050
    
    [GRAPHIC] [TIFF OMITTED] 80602.051
    
    [GRAPHIC] [TIFF OMITTED] 80602.052
    
    [GRAPHIC] [TIFF OMITTED] 80602.053
    
    [GRAPHIC] [TIFF OMITTED] 80602.054
    
    [GRAPHIC] [TIFF OMITTED] 80602.055
    
    [GRAPHIC] [TIFF OMITTED] 80602.056
    
    [GRAPHIC] [TIFF OMITTED] 80602.057
    
    [GRAPHIC] [TIFF OMITTED] 80602.058
    
    [GRAPHIC] [TIFF OMITTED] 80602.059
    
    [GRAPHIC] [TIFF OMITTED] 80602.060
    
    [GRAPHIC] [TIFF OMITTED] 80602.061
    
    [GRAPHIC] [TIFF OMITTED] 80602.062
    
    [GRAPHIC] [TIFF OMITTED] 80602.063
    
    [GRAPHIC] [TIFF OMITTED] 80602.064
    
    [GRAPHIC] [TIFF OMITTED] 80602.065
    
    [GRAPHIC] [TIFF OMITTED] 80602.066
    
    [GRAPHIC] [TIFF OMITTED] 80602.067
    
    [GRAPHIC] [TIFF OMITTED] 80602.068
    
    [GRAPHIC] [TIFF OMITTED] 80602.069
    
    [GRAPHIC] [TIFF OMITTED] 80602.070
    
    [GRAPHIC] [TIFF OMITTED] 80602.071
    
    [GRAPHIC] [TIFF OMITTED] 80602.072
    
    [GRAPHIC] [TIFF OMITTED] 80602.073
    
    [GRAPHIC] [TIFF OMITTED] 80602.074
    
    [GRAPHIC] [TIFF OMITTED] 80602.075
    
    [GRAPHIC] [TIFF OMITTED] 80602.076
    
    [GRAPHIC] [TIFF OMITTED] 80602.077
    
    [GRAPHIC] [TIFF OMITTED] 80602.078
    
    [GRAPHIC] [TIFF OMITTED] 80602.079
    
    [GRAPHIC] [TIFF OMITTED] 80602.080
    
    [GRAPHIC] [TIFF OMITTED] 80602.081
    
    [GRAPHIC] [TIFF OMITTED] 80602.082
    
    [GRAPHIC] [TIFF OMITTED] 80602.083
    
    [GRAPHIC] [TIFF OMITTED] 80602.084
    
    [GRAPHIC] [TIFF OMITTED] 80602.085
    
    [GRAPHIC] [TIFF OMITTED] 80602.086
    
    [GRAPHIC] [TIFF OMITTED] 80602.087
    
    [GRAPHIC] [TIFF OMITTED] 80602.088
    
    [GRAPHIC] [TIFF OMITTED] 80602.089
    
    [GRAPHIC] [TIFF OMITTED] 80602.090
    
    [GRAPHIC] [TIFF OMITTED] 80602.091
    
    [GRAPHIC] [TIFF OMITTED] 80602.092
    
    [GRAPHIC] [TIFF OMITTED] 80602.093
    
    [GRAPHIC] [TIFF OMITTED] 80602.094
    
    [GRAPHIC] [TIFF OMITTED] 80602.095
    
    [GRAPHIC] [TIFF OMITTED] 80602.096
    
    [GRAPHIC] [TIFF OMITTED] 80602.097
    
    [GRAPHIC] [TIFF OMITTED] 80602.098
    
    [GRAPHIC] [TIFF OMITTED] 80602.099
    
    [GRAPHIC] [TIFF OMITTED] 80602.100
    
    [GRAPHIC] [TIFF OMITTED] 80602.101
    
    [GRAPHIC] [TIFF OMITTED] 80602.102
    
    [GRAPHIC] [TIFF OMITTED] 80602.103
    
    [GRAPHIC] [TIFF OMITTED] 80602.104
    
    [GRAPHIC] [TIFF OMITTED] 80602.105
    
    [GRAPHIC] [TIFF OMITTED] 80602.106
    
    [GRAPHIC] [TIFF OMITTED] 80602.107
    
    [GRAPHIC] [TIFF OMITTED] 80602.108
    
    [GRAPHIC] [TIFF OMITTED] 80602.109
    
    [GRAPHIC] [TIFF OMITTED] 80602.110
    
    [GRAPHIC] [TIFF OMITTED] 80602.111
    
    [GRAPHIC] [TIFF OMITTED] 80602.112
    
    [GRAPHIC] [TIFF OMITTED] 80602.113
    
    [GRAPHIC] [TIFF OMITTED] 80602.114
    
    [GRAPHIC] [TIFF OMITTED] 80602.115
    
    [GRAPHIC] [TIFF OMITTED] 80602.116
    
    [GRAPHIC] [TIFF OMITTED] 80602.117
    
    [GRAPHIC] [TIFF OMITTED] 80602.118
    
    [GRAPHIC] [TIFF OMITTED] 80602.119
    
    [GRAPHIC] [TIFF OMITTED] 80602.120
    
    [GRAPHIC] [TIFF OMITTED] 80602.121
    
    [GRAPHIC] [TIFF OMITTED] 80602.122
    
    [GRAPHIC] [TIFF OMITTED] 80602.123
    
    [GRAPHIC] [TIFF OMITTED] 80602.124
    
    [GRAPHIC] [TIFF OMITTED] 80602.125
    
    [GRAPHIC] [TIFF OMITTED] 80602.126
    
    [GRAPHIC] [TIFF OMITTED] 80602.127
    
    [GRAPHIC] [TIFF OMITTED] 80602.128
    
    [GRAPHIC] [TIFF OMITTED] 80602.129
    
    [GRAPHIC] [TIFF OMITTED] 80602.130
    
    [GRAPHIC] [TIFF OMITTED] 80602.131
    
    [GRAPHIC] [TIFF OMITTED] 80602.132
    
    [GRAPHIC] [TIFF OMITTED] 80602.133
    
    [GRAPHIC] [TIFF OMITTED] 80602.134
    
    [GRAPHIC] [TIFF OMITTED] 80602.135
    
    [GRAPHIC] [TIFF OMITTED] 80602.136
    
    [GRAPHIC] [TIFF OMITTED] 80602.137
    
    [GRAPHIC] [TIFF OMITTED] 80602.138
    
    [GRAPHIC] [TIFF OMITTED] 80602.139
    
    [GRAPHIC] [TIFF OMITTED] 80602.140
    
    [GRAPHIC] [TIFF OMITTED] 80602.141
    
    [GRAPHIC] [TIFF OMITTED] 80602.142
    
    [GRAPHIC] [TIFF OMITTED] 80602.143
    
    [GRAPHIC] [TIFF OMITTED] 80602.144
    
    [GRAPHIC] [TIFF OMITTED] 80602.145
    
    [GRAPHIC] [TIFF OMITTED] 80602.146
    
    [GRAPHIC] [TIFF OMITTED] 80602.147
    
    [GRAPHIC] [TIFF OMITTED] 80602.148
    
    [GRAPHIC] [TIFF OMITTED] 80602.149
    
    [GRAPHIC] [TIFF OMITTED] 80602.150
    
    [GRAPHIC] [TIFF OMITTED] 80602.151
    
    [GRAPHIC] [TIFF OMITTED] 80602.152
    
    [GRAPHIC] [TIFF OMITTED] 80602.153
    
    [GRAPHIC] [TIFF OMITTED] 80602.154
    
    [GRAPHIC] [TIFF OMITTED] 80602.155
    
    [GRAPHIC] [TIFF OMITTED] 80602.156
    
    [GRAPHIC] [TIFF OMITTED] 80602.157
    
    [GRAPHIC] [TIFF OMITTED] 80602.158
    
    [GRAPHIC] [TIFF OMITTED] 80602.159
    
    [GRAPHIC] [TIFF OMITTED] 80602.160
    
    [GRAPHIC] [TIFF OMITTED] 80602.161
    
    [GRAPHIC] [TIFF OMITTED] 80602.162
    
    [GRAPHIC] [TIFF OMITTED] 80602.163
    
    [GRAPHIC] [TIFF OMITTED] 80602.164
    
    [GRAPHIC] [TIFF OMITTED] 80602.165
    
    [GRAPHIC] [TIFF OMITTED] 80602.166
    
    [GRAPHIC] [TIFF OMITTED] 80602.167
    
    [GRAPHIC] [TIFF OMITTED] 80602.168
    
    [GRAPHIC] [TIFF OMITTED] 80602.169
    
    [GRAPHIC] [TIFF OMITTED] 80602.170
    
    [GRAPHIC] [TIFF OMITTED] 80602.171
    
    [GRAPHIC] [TIFF OMITTED] 80602.172
    
    [GRAPHIC] [TIFF OMITTED] 80602.173
    
    [GRAPHIC] [TIFF OMITTED] 80602.174
    
    [GRAPHIC] [TIFF OMITTED] 80602.175
    
    [GRAPHIC] [TIFF OMITTED] 80602.176
    
    [GRAPHIC] [TIFF OMITTED] 80602.177
    
    [GRAPHIC] [TIFF OMITTED] 80602.178
    
    [GRAPHIC] [TIFF OMITTED] 80602.179
    
    [GRAPHIC] [TIFF OMITTED] 80602.180
    
    [GRAPHIC] [TIFF OMITTED] 80602.181
    
    [GRAPHIC] [TIFF OMITTED] 80602.182
    
    [GRAPHIC] [TIFF OMITTED] 80602.183
    
    [GRAPHIC] [TIFF OMITTED] 80602.184
    
    [GRAPHIC] [TIFF OMITTED] 80602.185
    
    [GRAPHIC] [TIFF OMITTED] 80602.186
    
    [GRAPHIC] [TIFF OMITTED] 80602.187
    
    [GRAPHIC] [TIFF OMITTED] 80602.188
    
    [GRAPHIC] [TIFF OMITTED] 80602.189
    
    [GRAPHIC] [TIFF OMITTED] 80602.190
    
    [GRAPHIC] [TIFF OMITTED] 80602.191
    
    [GRAPHIC] [TIFF OMITTED] 80602.192
    
    [GRAPHIC] [TIFF OMITTED] 80602.193
    
    [GRAPHIC] [TIFF OMITTED] 80602.194
    
    [GRAPHIC] [TIFF OMITTED] 80602.195
    
    [GRAPHIC] [TIFF OMITTED] 80602.196
    
    [GRAPHIC] [TIFF OMITTED] 80602.197
    
                                   - 

</pre></body></html>
